<html>
<title> - GAS PRICES IN THE NORTHEAST: POTENTIAL IMPACT ON THE AMERICAN CONSUMER DUE TO LOSS OF REFINING CAPACITY</title>
<body><pre>[Senate Hearing 112-478]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-478

GAS PRICES IN THE NORTHEAST: POTENTIAL IMPACT ON THE AMERICAN CONSUMER 
                    DUE TO LOSS OF REFINING CAPACITY

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2012

                               __________

          Printed for the use of the Joint Economic Committee



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
74-323                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

SENATE                               HOUSE OF REPRESENTATIVES
Robert P. Casey, Jr., Pennsylvania,  Kevin Brady, Texas, Vice Chairman
    Chairman                         Michael C. Burgess, M.D., Texas
Jeff Bingaman, New Mexico            John Campbell, California
Amy Klobuchar, Minnesota             Sean P. Duffy, Wisconsin
Jim Webb, Virginia                   Justin Amash, Michigan
Mark R. Warner, Virginia             Mick Mulvaney, South Carolina
Bernard Sanders, Vermont             Maurice D. Hinchey, New York
Jim DeMint, South Carolina           Carolyn B. Maloney, New York
Daniel Coats, Indiana                Loretta Sanchez, California
Mike Lee, Utah                       Elijah E. Cummings, Maryland
Pat Toomey, Pennsylvania

                 William E. Hansen, Executive Director
              Robert P. O'Quinn, Republican Staff Director























                            C O N T E N T S

                              ----------                              

                     Opening Statements of Members

Hon. Robert P. Casey, Jr., Chairman, a U.S. Senator from 
  Pennsylvania...................................................     1
Hon. Kevin Brady, Vice Chairman, a U.S. Representative from Texas     3
Hon. Pat Toomey, a U.S. Senator from Pennsylvania................    15

                               Witnesses

Dr. Diana Moss, Vice President, American Antitrust Institute, 
  Washington, DC.................................................     6
Mr. Robert Greco, Group Director of Downstream and Industry 
  Operations, American Petroleum Institute, Washington, DC.......     8
Mr. Thomas D. O'Malley, Chairman, PBF Energy, Parsippany, NJ.....    10
Dr. Michael Greenstone, Director, Hamilton Project, 3M Professor 
  of Economics, MIT, Washington, DC, and Cambridge, MA...........    11

                       Submissions for the Record

Prepared statement of Chairman Robert P. Casey, Jr...............    32
Prepared statement of Vice Chairman Kevin Brady..................    33
Prepared statement of Dr. Diana Moss.............................    34
Prepared statement of Mr. Robert Greco...........................    39
Prepared statement of Mr. Thomas D. O'Malley.....................    41
Prepared statement of Dr. Michael Greenstone.....................    42
Prepared statement of Hon. Donna Christensen.....................    46
Chart titled ``Mid-Atlantic and Northeast Gasoline: Weak Demand 
  and Ethanol Haave Displaced Gasoline Production of Up to Four 
  Marcus Hook Size Refineries''..................................    48
Chart titled ``U.S. Refinery Produced Gasoline: Policy Will Cause 
  Demand to Decline--The Question is by How Much?................    49
Prepared statement of Hon. John P. de Jongh, Jr..................    50
Prepared statement of Mr. Denis Stephano.........................    51
    Chart titled ``Northeast Refinery Capacity''.................    53

 
GAS PRICES IN THE NORTHEAST: POTENTIAL IMPACT ON THE AMERICAN CONSUMER 
                    DUE TO LOSS OF REFINING CAPACITY

                              ----------                              


                        THURSDAY, APRIL 26, 2012

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:37 p.m. in Room 
G-50 of the Dirksen Senate Office Building, the Honorable 
Robert P. Casey, Jr., Chairman, presiding.
    Senators present: Casey and Toomey.
    Representatives present: Brady, Burgess, and Duffy.
    Staff present: Conor Carroll, Gail Cohen, Cary Elliott, 
Will Hansen, Colleen Healy, Patrick Miller, Ted Boll, and 
Robert O'Quinn.

  OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., CHAIRMAN, A 
                 U.S. SENATOR FROM PENNSYLVANIA

    Chairman Casey. Well thank you, everyone. The Committee 
hearing will come to order. I'm sorry I'm so late. I'll do an 
opening statement, which I'll go through with great speed, and 
then we'll go to our Vice Chair.
    I want to thank everybody for being here. Today's hearing 
is focused on the impact that closures of petroleum refineries 
serving in the Northeast could have on prices at the pump in 
the Mid-Atlantic and New England regions. Since September 2011, 
two refineries in the Philadelphia area, and one, I should say, 
a major Caribbean export refinery supplying the East Coast, 
have in fact closed.
    Additionally, a third Philadelphia area refinery is slated 
to shut down this summer. In addition to the immediate impact 
on gas prices, we will explore at this hearing the long run 
cost to the economy associated with higher gasoline prices, as 
well as the actions that can be taken to encourage the adoption 
of cleaner, cheaper alternatives to petroleum, such as natural 
gas.
    When the situation remains--I should say while the 
situation remains fluid, with the potential sale of the three 
Philadelphia area refineries, I'm concerned that the Northeast 
is losing needed refining capacity. I'm especially concerned 
that this loss in refining capacity is happening at a time when 
consumers are already facing rising gas prices.
    With limited pipeline capacity to import from the Gulf 
Coast, this loss of refining activity in the Northeast will 
increase the region's dependence on European gasoline and 
diesel, and lead to higher prices for consumers. A recent 
Energy Information Administration report detailed the possible 
consequences of this reduction in refining capacity, which 
include greater price volatility and potential shortages in the 
Northeast.
    I am focused, as I know so many people here are, on 
ensuring that changes in refining capacity in the Northeast 
have as little impact as possible on energy prices, on jobs in 
our communities, and on the economic recovery. I've urged the 
administration to become directly involved in this issue. I met 
with workers at the three Pennsylvania refineries, 
Philadelphia, Trainer and Marcus Hook, to discuss the impact 
shuttering the refineries would have on the workforce.
    Together, these refineries represent half, half of the 
refining capacity in the northeastern United States. I'd like 
to recognize representatives from the United Steel Workers 
Local 10-1, Local 10-901, and Local 10-324, who are in the 
audience this afternoon. Also attending today's hearing are 
members of the International Brotherhood of Boilermakers, Local 
13, and Steamfitters Local 420.
    Closure of these facilities would likely mean that the 
Northeast region will experience a decrease in the supply of 
ultra low sulfur diesel, so-called ULSD. At the same time, 
there will be an increase in demand for ULSD, as both a 
transportation fuel and for home heating. With closure of the 
northeastern refineries' refining activities will be 
centralized in the Gulf Coast region. This will affect the 
price of gasoline, diesel and heating oil, and lead to 
potential shortages of these fuels in the Northeast.
    An earlier prolonged cold spell next winter could send home 
heating prices skyrocketing, further hitting consumers. Today 
gas prices are pushing $4 at the pump, well ahead of the summer 
driving season. We're facing higher prices, despite the fact 
that U.S. production of oil is at its highest level since 2003. 
For the first time in a decade, the U.S. is importing less than 
half of the oil we use.
    Yet with only two percent of the world's proven oil 
reserves, there's little impact the United States can have on 
the price of oil, which is set by the supply and demand in the 
global marketplace. Focusing on U.S. demand for oil offers more 
promise. The United States consumes more than 20 percent of the 
world's oil. Our dependence on oil to meet transportation needs 
leaves consumers with few choices, making them vulnerable to 
oil and gasoline price rises.
    By promoting policies that reduce our dependence on foreign 
oil, the United States can help to reduce global demand for 
oil, and ultimately, ultimately prices. If oil accounted for a 
smaller share of our energy needs, the U.S. economy and 
American consumers would be less vulnerable to price spikes in 
the oil market.
    It's clear that we need to accelerate natural gas 
development and use. Natural gas is produced right here at 
home, creating jobs. It's a clean source of energy, lower 
emissions than traditional gasoline. Finally, it's cheap. 
Converting vehicles, especially commercial vehicles to run on 
natural gas could play a role in the move to a cleaner energy 
alternative.
    In the coming weeks, I'll introduce legislation that 
provides states with both the funding and the flexibility to 
develop initiatives that (1) encourage use of natural gas as a 
transportation fuel and (2), encourage public and private 
investment in natural gas vehicles and transportation 
infrastructure.
    These actions will encourage the use of natural gas, while 
reducing our dependence on petroleum and our vulnerability to 
oil price spikes. We have a terrific group of witnesses today, 
with wide expertise on energy issues and I look forward to 
hearing from them. But first, we'll hear from the Vice Chair of 
the Joint Economic Committee, Congressman Kevin Brady.
    [The prepared statement of Chairman Casey appears in the 
Submissions for the Record on page 32.]

 OPENING STATEMENT OF HON. KEVIN BRADY, VICE CHAIRMAN, A U.S. 
                   REPRESENTATIVE FROM TEXAS

    Vice Chairman Brady. Well thank you, Chairman Casey for 
calling today's hearing. It's most appropriate, in light of 
high gasoline prices and a White House energy policy that's 
truly coming home to roost. While the President has touted 
``all of the above'' energy policies, the actual policies have 
been anything but that.
    They've been decidedly unfavorable to America's energy 
manufacturing industry, and that's true for crude oil 
production as well as refining. The administration has thwarted 
oil and gas development on federal lands and offshore, and 
imposed a hasty and prolonged moratorium in the Gulf of Mexico 
on drilling, and then hindered resumption of exploration 
through slow permitting.
    Most recently, it's denied increasing the assured and safe 
supply of crude oil from our ally, Canada, through the Keystone 
pipeline to American refineries. The President also risks the 
jobs of American energy workers, by threatening punitive tax 
treatment of energy manufacturing, for example, by singling 
this sector out, and rescinding incentives to encourage job 
creation and manufacturing here in America.
    Why is energy manufacturing different than any other form 
of manufacturing? Why are these good-paying energy jobs deemed 
expendable by the White House, and why is the President himself 
pushing taxes, encouraging energy companies to send their jobs 
overseas? This manufacturing deduction, by the way, is an 
important incentive to refining, and will further make these 
projects less economically viable if the President has his way.
    The administration is also pursuing policies that will 
shrink and punish petroleum refining, both by forcing it to 
blend in alternative fuels, even when they do not yet exist, by 
mandating ever more stringent emission standards, even when the 
costs are huge and the benefits uncertain. America is 
experiencing an energy revolution, with the potential to become 
the largest energy-producing country on the planet.
    Let's be clear. The rise in energy manufacturing driven by 
new technology is occurring on private lands, not federal 
lands. In fact, at President Obama's request, his 
administration has launched a flurry of regulatory attacks on 
oil shale development in America, leaving the country to pray 
that Washington will not smother the technology in the crib 
with more layers of regulation.
    Senator Lisa Murkowski, in a recent editorial entitled 
``America's Lost Energy Decade,'' pointed out that in 2002 the 
U.S. Senate decided against opening a small section of the 
Arctic National Wildlife Refuge to oil and gas production. The 
most cited reason at the time was that it would take too long, 
ten years, for the oil to reach the market.
    Now, ten years later, the White House is pleading with 
Saudi Arabia to produce more oil, when we could be controlling 
our own supply. Senator Murkowski correctly concluded that long 
lead times should be a reason to approve drilling quickly, not 
to continue putting it off.
    Other non-OPEC countries do not lock away their resources, 
not even pristine Norway, which is the world's seventh largest 
exporter of oil, and second largest exporter of natural gas. 
Our regulatory tale is one of self-inflicted wounds, cutting 
off our nose to spite our face. This country is blessed with 
resources that can be developed, produced and processed safely 
and cleanly, to support economic growth and technological 
development, which in turn will position us to further advance 
the state of the environment.
    All of this is critical to ensuring that America continues 
to have the strongest economy in the world throughout the 21st 
century. Refinery closures and job losses are painful, but even 
more so when our own government's policies contribute to them. 
Americans want to balance a healthy economy with a clean 
environment. They don't want their factories shut down 
effectively by order of the government, and products brought 
into the country from places that are much less environmentally 
committed than we are in the United States.
    Regulators need to take a rational, balanced approach, that 
recognizes that ignoring economic consequences hurts the very 
citizens and workers whose welfare they are charged to protect. 
First, our regulatory mechanism at least needs to be 
functional. It makes no sense whatsoever to impose blending 
requirements on refiners for cellulosic ethanol that doesn't 
exist in requisite quantity, and then fine them for not using 
it. It makes no sense to push corn ethanol consumption to a 
level that invalidates our car engine warranties. It makes no 
sense to impose sulfur content limits on gasoline, that 
actually may increase CO<INF>2</INF> emissions, when the EPA is 
trying to reduce those emissions as well. These are unforced 
policy errors we can't afford to commit, especially in this 
struggling economy.
    Second and more fundamentally, the administration, 
lawmakers and regulators must ask themselves if they're 
pursuing radical solutions that may never come to fruition, 
while missing opportunities to push steady and certain 
improvements. Are they provoking protracted lawsuits and 
delaying projects? Are their actions causing older, more 
polluting equipment to stay in place longer, and are they 
driving America's firms out of business and costing us jobs, 
while inviting more dependence on foreign countries with worse 
pollution records?
    Regulations should facilitate the market's functioning, 
neither treating private enterprise as an adversary, nor 
pressing for preconceived outcomes in one sphere, while 
ignoring collateral damage in the other. Devising good 
regulatory policy doesn't have to be intensely adversarial. It 
can be more collaborative, engage in incentives to the private 
sector, and above all be mindful that it ought to serve 
economic growth and technological development, the ultimate 
sources of better living standards.
    Like the Chairman, I look forward to hearing our witnesses' 
testimony and probing their ideas for better regulation of oil 
refineries and in general. I yield back.
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 33.]
    Chairman Casey. Thank you, Vice Chairman Brady. What I'll 
do now is introduce each of the witnesses by way of their 
background and biography, and then I'll start with Dr. Moss for 
her testimony. Let me say two things. Number one to the 
witnesses, and to the audience, once again I apologize for 
being late. I thought the mark-up I was in would be about 12 
minutes shorter than it was.
    Secondly, if you can keep your testimony as close as 
possible to five minutes. If you go beyond that by a few 
seconds, nothing will happen. If you go beyond it by more, 
we'll probably start standing up and waving our arms, and we'll 
try not to do that.
    But we're honored to have such a great panel. Dr. Diana 
Moss is Vice President, Director and Senior Research Fellow of 
the American Antitrust Institute. She specializes in the 
economics of antitrust, regulation and energy, and natural 
resources. Dr. Moss was a senior staff economist and 
coordinated campaign analysis in the Office of Market, Tariffs 
and Rates Division of the Corporate Applications, Federal 
Energy Regulatory Commission from 1995 to 2000.
    She has published and spoken widely on energy regulation 
and antitrust issues, and is also an adjunct professor at the 
University of Colorado Department of Economics. Her Ph.D. in 
Mineral Economics was earned at the Colorado School of Mines in 
1989. Dr. Moss, thank you for being here.
    Second, Mr. Robert Greco is Group Director of Downstream 
and Industry Operations for the American Petroleum Institute or 
so-called API. In this capacity, he directs API's activities 
related to refining, pipelining, marketing and fuel issues. 
Over his 21 year career at API, Mr. Greco has managed 
exploration and production activities, policy analysis, climate 
change issues, marine transportation, refining, gasoline and 
jet fuel production issues and Clean Air Act implementation 
efforts.
    Before API, he was an environmental engineer with the U.S. 
EPA, with expertise in automotive emission control 
technologies. He has an M.S. degree in Environmental 
Engineering from Cornell University, and a BA in Biology from 
Colgate University. Mr. Greco, thank you for being here.
    Third, we have Mr. Thomas O'Malley. He currently serves as 
Chairman of the Board of Directors of PBF. Mr. O'Malley has 
more than 30 years of experience in the refining industry. He 
served as Chairman of the Board and chief executive officer of 
Petropolis, I'm sorry, Petro Plus Holdings AG from 2006 until 
February 2011.
    Mr. O'Malley was Chairman of the Board and chief executive 
officer of PREMCOR, Incorporated, a domestic oil refinery, from 
February of 2002 until its sale to Valero in August of 2005. 
Prior to joining PREMCOR, Mr. O'Malley was Chairman and Chief 
Executive Officer of Tosco Corporation. He previously served as 
Vice Chairman and Chief Executive of Salomon Brothers Oil 
Trading Division. Mr. O'Malley, thank you for being with us.
    Dr. Michael Greenstone is the 3M Professor of Environmental 
Economics at the Massachusetts Institute of Technology. He's 
also a senior fellow in Economic Studies and Director of the 
Hamilton Project. Previously, Dr. Greenstone served as chief 
economist for the President's Council of Economic Advisers 
under President Obama.
    Dr. Greenstone's academic work is focused on identifying 
government's appropriate role through regulations, taxes or 
spending in a market economy. Dr. Greenstone became a member of 
the Environmental Economics Advisory Committee of EPA's Science 
Advisory Board in 2003. In 2004, he received the 12th Annual 
Kenneth J. Arrow award for best paper in the field of health 
economics.
    He received a Ph.D. in Economics from Princeton University 
in 1998, and a B.A. in Economics from Swarthmore College, Mr. 
Toomey and I know where that is, in 1991. So Dr. Moss, you're 
first. Thank you.

STATEMENT OF DR. DIANA MOSS, VICE PRESIDENT, AMERICAN ANTITRUST 
                   INSTITUTE, WASHINGTON, DC

    Dr. Moss. Thank you. I would like to thank Chairman Casey 
and the members of the Joint Economic Committee for holding 
this hearing. It is an honor to appear here today. My testimony 
raises competitive issues relating to refinery closures in the 
Northeast, and their potential impact on refined petroleum 
product prices.
    As a preliminary matter, it is important to consider the 
backdrop against which refinery closures are occurring. First, 
the Northeast is a unique area relative to other parts of the 
U.S., with few refineries, high refining market concentration 
and a significant dependency on imports of petroleum products.
    Second, it is important to recognize that domestic prices 
are not entirely determined by OPEC. Crude oil accounts for 
about 70 percent of the price of gasoline at the pump, but 
downstream activities, such as refining, terminaling and 
storage, and retail marketing and distribution, make up 15 
percent.
    So the U.S. has little control over cartelized crude 
prices. Activities that we can control domestically account for 
a not insignificant proportion of gasoline prices. Let me 
briefly highlight a number of competitive issues that arise 
from refinery closures. The first is refining market 
concentration.
    With the closure of the Marcus Hook, Philadelphia and 
Trainer refineries, there will be between a 40 and 50 percent 
loss in refining capacity in PADD 1, between 2011 and mid-2012. 
Much like mergers, refinery closures can affect the 
distribution of refinery ownership. For example, concentration, 
as measured by the Herfindahl Index, in PADD 1 was about 3,300 
at the end of 2010, and will increase to around 4,000 by mid-
2012.
    By antitrust standards, such a market would be unconducive 
to competitive outcomes. Three firms controlled about 90 
percent of capacity in 2011, but only two firms will control 
about 90 percent of capacity by mid-2012 after all of the 
closures are completed. This represents a major structural 
change in the northeast refining market.
    High concentration in bottleneck industries can raise 
concerns over the exercise of market power. For example, firms 
acting alone or in coordination with rivals may have a greater 
ability and incentive to withhold output in the short run, or 
capacity additions in the long run, to drive up prices. A 
second consideration is the possible of vertical foreclosure, 
or that integrated refiners could possess the ability and 
incentive to exclude their downstream rivals, such as 
wholesalers and retailers from the market, thereby raising 
prices.
    Higher concentration in refining and in wholesaling 
increases this possibility. Here, I note that in addition to 
increases in refining concentration, wholesale market 
concentration has also increased in some PADD 1 states such as 
Pennsylvania.
    A third consideration is the impact of refining closures on 
the transportation network. In 2010, PADD 1 imported 72 percent 
of its petroleum needs, much of which came from the Gulf Coast, 
and some from imports from abroad. With less refining capacity 
available to self-supply within the Northeast, imports will 
likely rise and supply chains will lengthen, to bring in 
imports from more remote sources.
    Longer supply chains are more fragile or prone to 
disruption or collapse, and may magnify the effects of market 
power that is exercised at concentrated bottlenecks along the 
way. The questions I raise do not imply that there is or there 
is sure to emerge a competitive problem associated with 
refinery closures. In fact, prices may rise in response to 
natural economic conditions, such as the need to bid supplies 
away from other lucrative markets, from capacity constraints on 
transportation networks, or from the costs of upgrading or 
expanding the network.
    In fact, some factors may also mitigate competitive 
concerns. For example, vertical integration in PADD 1 has 
declined over the last several years, as firms spin off assets 
to concentrate on more profitable activities. But the fact 
remains, two refiners will control the market, one of which is 
vertically integrated, and that continues to be of concern.
    Refinery utilization rates are also relatively low right 
now in the Northeast, making a potential withholding strategy 
less probable. But utilization rates jumped from 56 percent to 
72 percent between the end of 2011 and the beginning of 2012, 
after the Marcus Hook and the Trainer closures, and they may 
further rise, in light of constraints on bringing in more 
supplies from outside PADD 1, and in light of declining 
investment in refining.
    In sum, it would be prudent for policymakers to be prepared 
to address a number of developments in the Northeast. This 
includes tight refining capacity and strategic competitive 
behavior, particularly involving refiners that control large 
shares of capacity, marginal capacity that sets the price.
    Policy responses to high gasoline prices would consider 
prices, output, innovation, but also economic growth, equity 
and national security. If competitive issues appear to be 
playing a role in the aftermath of closures, it will be 
important to scrutinize carefully for further M&A activity in 
the Northeast. Moreover, some potentially anti-competitive 
behavior such as withholding to drive up prices is beyond the 
reach of the antitrust laws.
    [The prepared statement of Dr. Diana Moss appears in the 
Submissions for the Record on page 34.]
    Chairman Casey. Dr. Moss, thank you. That was only 27 over. 
That's good. Mr. Greco, thank you for being here.

  MR. ROBERT GRECO, GROUP DIRECTOR OF DOWNSTREAM AND INDUSTRY 
    OPERATIONS, AMERICAN PETROLEUM INSTITUTE, WASHINGTON, DC

    Mr. Greco. Thank you. Good afternoon, Chairman Casey, Vice 
Chairman Brady, members of the Committee. My name is Bob Greco 
and I'm Downstream Group Director for API. Thank you for the 
opportunity to testify today. API represents more than 500 
companies engaged in all aspects of America's oil and natural 
gas industry. The industry supports 7.7 percent of our economy, 
9.2 million jobs, and millions of Americans who hold ownership 
stakes through pension funds, retirement accounts and other 
investments.
    Refineries are critically important to our nation. They 
make the fuels that virtually all Americans use and that drive 
our economy. They contribute to our energy and national 
security, and they provide jobs for tens of thousands of 
Americans and substantial revenue to local, state and federal 
governments.
    The recent refinery closures in the northeastern U.S. are 
of great concern. They have the potential to impact families, 
communities and other manufacturing industries, and to reduce 
tax revenues. We very much regret that. It's also important, 
however, to understand the reasons why refining is such a 
challenging business, and why closures sometimes occur, and to 
also know that the refining industry is resilient and will 
continue to supply the products that all Americans need.
    Refining is highly competitive. It is also historically 
been a low profit margin industry, faced with a heavy slate of 
regulations involving many billions of dollars in environmental 
investments and compliance costs. Because of these and other 
factors, some refineries, often after sustained periods of 
financial losses, have had to shut down.
    About 75 U.S. refineries have closed since 1985. As this 
has happened, however, the remaining larger, more efficient 
facilities have expanded capacity, so that total U.S. refining 
capacity has actually increased by 13 percent. The ability of 
our industry to add capacity and deliver larger amounts of 
gasoline and other products over a flexible distribution 
network, and also to draw on imported products when necessary, 
will help us continue to provide Americans the fuels they need.
    The higher prices we see now have also been a challenge for 
our refineries. Rising global demand and Middle East tensions 
have pushed the cost of crude oil higher. The cost of crude oil 
is the single biggest factor in the price of gasoline, 
accounting for about three-quarters of the pump price, 
excluding gasoline taxes, and is the largest cost incurred by 
refineries.
    Refiners have struggled to pay these higher raw material 
costs to make products for Americans, at a time when demand has 
been relatively weak because of (1), the recession, and (2), 
the federal ethanol blending mandate. This has severely pushed 
down margins and has negatively affected the refining sector.
    Refining is a difficult business, but we can make better 
energy policy choices that can help the industry remain a 
reliable, stable supplier of affordably-priced fuels and keep 
its workers employed. Good policy choices means sensible 
regulations, fair tax policies and sufficient access to the 
crude oil from which all refined products are made.
    Decisions made in Washington, D.C. are a big part of this 
equation, but so are those made by local and state governments, 
such as state requirements for ultra low sulfur home heating 
oil. Excessive rules can raise costs and make it harder for our 
refineries to compete and stay in business.
    Policies such as those embraced by the current 
administration, that limit crude oil production in the United 
States, or prevent ready supplies from being imported from 
Canada, put upward pressure on crude oil prices, that 
eventually affected refineries and those who consume the 
gasoline, diesel and other products they make.
    That's why we've been calling on the administration for a 
change of course. We've urged them to expand access to 
America's vast oil and natural gas resources on public lands, 
that could also add supplies to markets and put downward 
pressure on prices. We've urged them to approve the Keystone 
Xcel pipeline, which could deliver from Canada very large 
additional quantities of crude oil to U.S. refineries that 
serve U.S. consumers.
    We've called for more sensible, cost-effective regulations, 
that show a practical regard for potential impacts on the 
industry, its employees and those who depend on the products 
they make. We've asked the EPA in particular to reconsider a 
virtual blizzard of new, poorly thought-out or unnecessary 
rules affecting our refining sector including, for example, a 
rule that forces refiners to blend into gas with advanced 
biofuels that do not yet exist, or pay a fee for doing so.
    Another example is the fuel changes being considered by EPA 
in its Tier 3 rulemaking. These potential requirements have yet 
to be justified, but they could threaten to increase fuel 
manufacturing costs, increase refinery greenhouse gas 
emissions, and make U.S. refineries less competitive with 
foreign refiners.
    And we've challenged billions of dollars in proposed tax 
increases on an industry that already pays vast sums to the 
government, at far higher effective tax rates than most other 
industries. In conclusion, America's refineries are a critical 
part of the nation's industrial bedrock, and part of the fabric 
of the communities in which they operate.
    They make products that are absolutely indispensable to 
America, they are vital to our national security. Our 
policymakers must understand this, for this vital sector of our 
economy to continue serving America as best as it can. Thank 
you.
    [The prepared statement of Mr. Robert Greco appears in the 
Submissions for the Record on page 39.]
    Chairman Casey. Thanks, Mr. Greco.
    Mr. O'Malley.

  MR. THOMAS D. O'MALLEY, CHAIRMAN, PBF ENERGY, PARSIPPANY, NJ

    Mr. O'Malley. Chairman Casey, Vice Chairman Brady and 
members of the Committee, thank you for giving me the 
opportunity to testify at today's hearing on some of the 
factors that led to the refinery closures in the Northeast, and 
hopefully I'll be able to say something about leading to the 
reopening of these refineries in the Northeast.
    PBF Energy owns three refineries with a total capacity of 
about 540,000 barrels a day. Two of these refineries are 
located in the Northeast, one in Delaware and one in New 
Jersey. The Delaware refinery was taken over from Valero in 
2010 in a closed-down state. We spent several hundred million 
dollars to fix it and reopened it. The Paulsboro refinery was 
also bought from Valero in 2010, and was in danger of being 
closed. Both of these refineries are supplying crude oil 
products to the U.S. East Coast.
    The third refinery we own is in Toledo, Ohio, and has 
operated on a continuous basis since we acquired it from Sunoco 
in 2011. We employ, including direct employees and contractors 
who work at the facilities, about 2,000 people. The recent 
refinery closures that have occurred or are currently pending 
are the tip of an iceberg.
    If fuel substitutions, from 2012 to 2022 mandated under the 
Energy Independence and Security Act of 2007 are maintained, we 
will lose over that time period an additional ten percent 
minimum of U.S. refining capacity, and thousands of high-paying 
jobs that this important industry provides.
    The 1,400,000 barrels a day of renewable fuels, over and 
above the 2011 mandate will, we believe, be far more expensive 
than the oil products coming from refineries.
    When you combine this with what can only be described as an 
aberrant administration of the 2007 Act, particularly on 
renewable identification numbers (RINS) by the Environmental 
Protection Agency, it's easy to come to the conclusion that the 
U.S. government will drive refining companies out of business.
    This extra fuel substitution has no basis in economic 
reality, and is marginal in terms of environmental improvement. 
The Act of 2007 may have seemed good policy in 2007, but it 
sure isn't today.
    If bio and renewable fuels manufacturers can produce on a 
superior economic basis to hydrocarbon fuels, they should do 
so. They should take market share, but the old fashioned way, 
through better quality, better price and without government 
mandates or subsidies.
    Indeed, as the gentleman from the API said, we are on a 
road that may in fact get us to energy independence. But it's 
going to come from more production of hydrocarbons, and not 
taking corn out of the food chain and turning it into ethanol 
or some other dream process that doesn't exist on an economic 
basis, to make advanced biofuel at great cost to the consumer.
    The other government action that will close more refineries 
and raise the price of fuel is the EPA plan for Tier 3 
gasoline. The industry will have to spend billions of dollars 
to comply, money which independents, who now control 60 percent 
of the capacity in this country, probably don't have. Why are 
they doing this? To lower the sulfur content from 30 parts per 
million to 10 parts per million.
    Under this Tier 3 plan, the total sulfur removed from PBF's 
gasoline production of about 4.5 billion gallons per annum, 
would be less than one-eighth of what one 500 megawatt coal-
fired power plant emits in a year. You have several of those 
plants not so far from here. Is this good policy in a weak 
economy, where it helps to kill one of our last heavy 
industries, that provides high-paying jobs and meets the needs 
of the population?
    The hearing is focused on the impact of potential closures 
of petroleum refineries serving the Northeast, and the effect 
on prices. But this is not just a problem in the Northeast. 
It's a problem for the nation. In the short, medium and long-
term, it is my view that these closures will lead to higher 
prices than if those refineries were operating. In certain 
circumstances, we could see dangerous shortages develop, which 
could lead to severe economic disruption in the Northeast.
    In conclusion, we need to see an adjusted government policy 
that seeks to maintain this important strategic manufacturing 
industry, and not a series of policies and laws that destroy 
it. Removing the 2007 renewable fuel mandate, eliminating the 
mandate for ten percent ethanol in gasoline, and holding EPA 
back from an aggressive stance on Tier 3 gasoline 
specifications, would in my view lead to a reopening of some of 
the closed refineries and long-term employment for thousands of 
workers in the Delaware Valley.
    Fault cannot be placed on either the Democrats or the 
Republicans. This is just a combined policy that hasn't worked 
and should be changed. Thanks for taking the time for inviting 
me, and the courtesy of listening.
    [The prepared statement of Mr. Thomas D. O'Malley appears 
in the Submissions for the Record on page 41.]
    Chairman Casey. Thank you, Mr. O'Malley. Dr. Greenstone.

    STATEMENT OF DR. MICHAEL GREENSTONE, DIRECTOR, HAMILTON 
 PROJECT, 3M PROFESSOR OF ECONOMICS, MIT, WASHINGTON, DC, AND 
                         CAMBRIDGE, MA

    Dr. Greenstone. Thank you, Chairman Casey, Vice Chairman 
Brady and members of the Committee for the opportunity to speak 
today. The potential closure of petroleum refineries on the 
East Coast have led to speculation that energy prices may rise, 
possibly dramatically in some instances.
    I think this hearing provides an opportunity to consider 
our energy choices more broadly. Any consideration of our 
energy system must recognize that we're in the midst of a 
natural gas revolution.
    This is perhaps best illustrated by the figure to my left, 
which reports the ratio of petroleum to natural gas prices on 
an equal energy content basis. What's really amazing about the 
chart is for the 25 years, from roughly 1980 to 2005, the ratio 
was two to one.
    Then beginning in about 2005, our natural gas production 
began to increase, a lot of it in your home state of 
Pennsylvania, and you saw this ratio changed dramatically. Now, 
the petroleum price is about six times the natural gas price. 
This practically unprecedented change in the ratio of oil to 
natural gas prices presents an incredible opportunity for the 
United States. It's creating economic opportunities around the 
country and over the longer term, I believe offers an 
opportunity to strengthen our energy security by reducing our 
dependence on petroleum.
    Indeed, the first signs of a transition to increased 
reliance on natural gas in the transportation sector are 
beginning to emerge. But the key point is that this transition 
will not proceed optimally or quickly, unless we make proactive 
policy choices.
    Specifically, one of the most challenging features of our 
energy system is that many of our energy choices involve what 
economists call externalities. That is to say, the choices 
individuals make about the production or consumption of a 
particular energy source impose costs on others, in the form of 
shorter lives, higher health care expenses, a changing climate 
and a constrained national security or weakened foreign policy.
    The current energy playing field is tilted, because our 
individual energy choices are based largely on the visible 
costs that appear in our electric bills, and appear at the gas 
pump. This system masks the full or social costs arising from 
these energy choices. The second figure to my left helps to 
illustrate this.
    If you take an example, look at coal, the private cost of 
producing a kilowatt hour of coal is in blue there, and it's 
about 3.2 cents per kilowatt hour. But if one were to account 
for external costs--health problems and the changing climate, 
for example--and use numbers from the National Academy of 
Science and from the United States government, the true social 
cost is 8.8 cents per kilowatt hour.
    In contrast, the private cost of a kilowatt hour of 
electricity from a new natural gas plant is about 4.1 cents, 
and then if you were to add in the external costs such as 
health costs and the projected damages from changes in the 
climate, the full social cost is about 5.2 cents.
    So despite the relatively low social cost of natural gas, 
industry and consumers have little incentive to change their 
energy choices. This is because coal, and in the transportation 
sector gasoline, are comparatively inexpensive when only their 
private costs are considered. A better approach to energy 
policy would involve a fairer competition between energy 
sources that placed them on a level playing field.
    This would involve pricing carbon and other pollutants 
appropriately. I want to emphasize, though, that even in the 
absence of a national policy to price these external costs, 
there are still other policy options available. As an example, 
some existing U.S. policies aim to correct externalities in 
energy use in the transportation sector, but they don't treat 
natural gas fairly. That's something that's going to be 
illustrated in the Hamilton Project paper by my colleague, 
Chris Knittel from MIT, that will be released in June.
    Let me just give you an example of some of the findings 
from that paper. So for example, the federal renewable fuel 
standard ensures that transportation fuels sold in the U.S. 
contain certain volumes of renewable fuels, but does nothing to 
encourage the use of natural gas.
    The stated rationale behind the Act is to promote energy 
independence and security, and to favor clean fuel sources. Use 
of natural gas would clearly advance the mission of the Act, 
and until natural gas is included in the renewable fuel 
standard as a Conventional Biofuel, it will be at a 
disadvantage to fuels such as ethanol.
    Another example comes from electric vehicles, where we 
currently have large subsidies to the income tax code to 
purchase these vehicles. What that is missing is the fact that 
vehicles that run on compressed natural gas produce similarly 
low amounts of greenhouse gas emissions as electric vehicles, 
and yet they're not as privileged through the tax code.
    Finally, there are also issues in infrastructure which 
require further analysis, with respect to bringing natural gas 
to the transportation sector. Without prejudging the outcome, I 
think it would be appropriate to study whether some targeted 
subsidies for the construction of natural gas refueling 
stations are justified.
    Let me conclude by bringing this back to the subject of 
today's hearing. Periodically, the energy sector shows up in 
the headlines. Most often this is due to price spikes, like 
those that some project would occur in the Northeast following 
the potential closure of petroleum refineries, or due to 
environmental damages associated with energy production or 
consumption.
    Our current energy policies encourage these problems rather 
than discourage them, by failing to allow all energy sources to 
compete on a level playing field. I would make respectfully two 
recommendations that would help to level the playing field.
    The first is the federal government should price the 
external costs--that is the health, environmental and security 
costs--associated with the production and consumption of 
various energy sources. That reform would allow all energy 
sources to compete on a level playing field.
    Second, if it's infeasible to fully price these external 
costs, then the forthcoming Hamilton Project paper makes a 
compelling case for putting natural gas on equal footing with 
renewable fuels under the Federal Renewable Fuel Standard, and 
by providing equal subsidies to electric vehicles and vehicles 
that run on compressed natural gas.
    I'd like to thank the entire Committee once again for 
inviting me to participate in discussion, and I would be happy 
to entertain any questions.
    [The prepared statement of Dr. Michael Greenstone appears 
in the Submissions for the Record on page 42.]
    Chairman Casey. Thank you, Doctor, very much. We'll move to 
questions now. Before I do that, let me recognize a 
distinguished member of our audience. I'd like to recognize 
Congresswoman Donna Christensen, the United States Virgin 
Islands delegate to Congress. She's there, I think, in the 
first row. Thank you so much for being here.
    She's here this afternoon and has written testimony that 
will be included in the official record of the hearing. The 
Virgin Islands has been directly impacted by the recent 
refinery closures, I should say. In February 2012 Hovensa, the 
U.S. Virgin Islands refinery, was shut down.
    This refinery, which produced, I should say, 350,000 
barrels per day, employed 2,000 workers. Half of the refinery's 
product was exported to the Northeast. For 45 years, the 
refinery was the Virgin Islands' largest private sector 
employer. Now, it will operate as an oil storage facility and 
employ just 100 people.
    Clearly, this economic hit for the Virgin Islands has been 
substantial, and the loss of refining capacity also affects 
consumers in the northeastern United States. I appreciate 
Congresswoman Christensen being here today, and I'm grateful 
she's offered us a perspective by way of her testimony.
    [The prepared statement of Hon. Donna Christensen appears 
in the Submissions for the Record on page 46.]
    Chairman Casey. Dr. Moss, I wanted to start with you. In a 
pertinent part on page three of your testimony, where you 
outline in the first paragraph so-called downstream activities, 
refining, distribution of refined products to storage 
terminals, wholesale and retail marketing, all of those under 
the umbrella of downstream activities, and you say that ``these 
activities make up a not insignificant 17 percent of the final 
retail price of gasoline.''
    So I guess my first question is when it comes to that part 
of your testimony, and you consider that, and you also 
consider, as you observed, that the Northeast has the fewest 
number of refineries and the highest level of both market 
concentration and increase in concentration, how does that 
competitive situation in the northeastern United States compare 
to other regions of the country?
    Dr. Moss. That's a good question. I think the comparison, 
if you look at the EIA's breakdown in terms of what makes up 
the final price of gasoline at the pump, that's an interesting 
breakout, and I think some of my colleagues here pointed out 
that some of that goes to taxes. Obviously, crude oil plays a, 
has a huge impact, along the lines of about 75 percent in 
making up the final price of gasoline.
    My point is that we can't ignore what goes on in a 
downstream sector, by way of saying well, it's all driven by 
crude oil prices, because it's not. In large part, crude has a 
large impact on retail prices, but we do have control over the 
downstream part of our industry, that occurs under our own 
domestic roof.
    If there is competitive mischief or anti-competitive 
mischief that evolves from a very highly concentrated refining 
sector, and incentives that are created for firms to behave 
strategically, even a 15 percent portion of the final gasoline 
price could account for significant price spikes.
    So my message, I think, is that we can't rack this entirely 
up to factors outside of our control, meaning OPEC. We do have 
control over our domestic industry, what the structure of that 
industry looks like, and how competitive outcomes are in that 
industry. Compared to other regions of the country, this is 
very, very unusual, in terms of high refining concentration, 
wholesale concentration and the like.
    So PADD 1 or the Northeast in particular provide a very 
unique competitive scenario or landscape against which we need 
to evaluate the possibility of price hikes.
    Chairman Casey. Let me ask one more question in this round. 
We've worked very hard, a broad coalition of people in 
Pennsylvania, to be constructive in our engagement with the 
companies, to try to prevent the closures and try to maintain 
refining capacity, and literally maintain refineries in 
southeastern Pennsylvania.
    Mr. Toomey and I and members of Congress in both parties 
have been working with and meeting with the employers, the 
workers and the unions representing those workers, a lot of 
people working together. I want to commend so many people for 
making that effort.
    But one of the concerns that we have is that right now, 
there's an offer, several offers, but offers from outside 
groups which would operate refining operations, refining 
locations I should say, using those facilities not as 
refineries, but in this one case potentially operating it as a 
terminal.
    I wanted you to comment on that, in terms of some of the 
consequences to operating one of the idled or closed refineries 
as a terminal, instead of keeping it as a refinery. Is there 
anything you can say with regard to that and the consequences?
    Dr. Moss. Well, I obviously can't speak to the mechanics or 
the engineering aspects of converting refineries into terminals 
and storage facilities. But from a competitive standpoint, I 
think even that requires a fair bit of scrutiny. For example, 
if refineries are taken over to serve a fundamentally different 
purpose, we would want to know who's purchasing those 
facilities, to avoid any further concentration of terminaling 
and storage amongst a very small set of firms or suppliers in 
the market, which could in turn drive up wholesale market 
concentration.
    I mentioned both refining market concentration and 
wholesale market concentration are important, particularly in 
this area where there are so few suppliers. So I think we would 
want to be very careful, through antitrust enforcement and 
investigations, to make sure that refining assets don't turn 
over in a way that exacerbates concentration and refining, and 
that terminaling and storage markets do not also become more 
concentrated, because they went to firms that have a dominant 
presence in the market.
    Chairman Casey. Thanks very much. Vice Chairman Brady.
    Vice Chairman Brady. Mr. Chairman, because we're told 
Senate votes start very quickly, with your permission, I'd like 
to call on Mr. Toomey, so that both of you can have a first 
round of questions.
    Chairman Casey. Sure, thank you.

   OPENING STATEMENT OF HON. PAT TOOMEY, A U.S. SENATOR FROM 
                          PENNSYLVANIA

    Senator Toomey. Vice Chairman Brady, thank you very much 
for your kind accommodation of our voting schedule. I 
appreciate it. Senator Casey, thank you for leading this 
hearing, and I want to thank the witnesses, as well as the 
guests who are here today.
    This is a very, very big deal in southeastern Pennsylvania. 
We've got thousands of families that are out of work, that are 
facing the possibility of losing existing jobs, and in many 
cases, with pretty grim prospects of getting back to work at 
comparable jobs.
    So I think it's important that we understand a little bit 
better how we got here, and the prospect going forward. I am 
very concerned, for instance, with Mr. O'Malley's suggestion 
that this might be the tip of the iceberg. We currently have 
the hope that a new buyer could come in and operate the 
Philadelphia refinery.
    We have a hope that the trainer facility could continue to 
operate as a refinery. But if Mr. O'Malley is right, and there 
are circumstances in place that jeopardize the future viability 
of refineries generally going forward, then all of this is in 
question.
    So I want to touch on three areas in which I think the 
federal government in Washington is contributing to the 
problem. Now I'd be the first to acknowledge, there are many 
macroeconomic factors that contribute to pressure on the 
refining sector, on this industry, contribute significantly to 
the causes for the closures that we've seen and that we're 
worried about.
    But there are also some factors that we in Washington are 
responsible for. I want to touch on three of them. One is the 
CAFE standards that we have adopted, which it seems to me 
unambiguously have the effect of forcing people to buy smaller 
and lighter and less powerful cars than they would prefer. That 
diminishes demand for gasoline and diminished demand has an 
effect on the refining industry.
    Second is the ethanol mandates, which I want to dwell on a 
bit, and then finally there are EPA regulations on the 
refineries themselves. But I've got a chart here that I'd like 
to call to your attention, and do you have a printed version 
that I can have? Thank you.
    This depicts--the black line that's generally sloping 
upward is the price of gasoline, and that is on the right-hand 
scale, and that's really there for information purposes. What I 
find very interesting is the green segment at the top of this 
chart. The combined red and green segments together represent 
the total refined product that is produced in the Northeast and 
the Mid-Atlantic region.
    The green section is the ethanol component, which you can 
see started to expand dramatically from a very, very minimal 
sliver of a green line prior to 2003, to a very, very big 
segment of this graph by oh, increasing really through the last 
decade. My understanding is that if you quantify the ethanol 
that is represented on this chart, that which serves just the 
Northeast and the Mid-Atlantic states, it is equivalent to the 
gasoline production of two Marcus Hook production refineries.
    That's a pretty staggering amount, and I think it's an 
important comparison to think about. So my question, and I'll 
direct this first to Mr. O'Malley, but others, please feel free 
to weigh in on this. Given that ethanol now, by mandate of the 
federal government, replaces ten percent of what would 
otherwise be gasoline, how significant an impact do you suppose 
that has had on the prospects of the refining sector?
    [Chart titled ``Mid-Atlantic and Northeast Gasoline: Weak 
Demand and Ethanol Haave Displaced Gasoline Production of Up to 
Four Marcus Hook Size Refineries'' appears in the Submissions 
for the Record on page 48.]
    [Chart titled ``U.S. Refinery Produced Gasoline: Policy 
Will Cause Demand to Decline--The Question is by How Much? 
appears in the Submissions for the Record on page 49.]
    Mr. O'Malley. The reason for the closure of the refineries 
in Pennsylvania is that they didn't make money, and the reason 
they didn't make money is that you took away their market. You 
delivered the market to the farm industry. It is not ten 
percent. That is what it should be, but through the 
administration of the EPA and actions, I must say, of Congress, 
it has to go above ten percent, because in addition to a 
mandate for ten percent, there was a gallonage mandate assigned 
to the gasoline pool.
    Because the use of gasoline in the United States has fallen 
off, we now have a mandate that will go up to 12, 13, 14, 15 
percent, and we have a motor industry that says we can't really 
deal with that. You're going to injure the engines on cars. Now 
if you put on top of it the insanity associated with cellulosic 
fuels, you will ultimately take away another 10 or 15 percent 
of this industry.
    When I say the tip of the iceberg, I chair a company that 
has three refineries. I'm not completely sure that my three 
refineries can continue to operate in the future, and since two 
of them are in the Northeast, we may be in a more difficult 
situation than you might believe.
    This is a total mess, and it really does need to be fixed. 
The fix, my colleague here on the left, I agreed with basically 
everything he said, except for one word that he kept putting 
in: subsidy. Level the playing field. If natural gas is a more 
efficient fuel in the United States, let's use it as much as we 
can. If ethanol is a more efficient fuel in the United States, 
let's use it. But level out the playing field, and when you do 
level the playing field, you're going to find that that 
terrible old-fashioned gasoline that we've been putting in our 
cars for so many years, is the most efficient fuel.
    We've made enormous strides in cleaning it up. Today, 
gasoline looks nothing like it looked 20 years ago. I have the 
privilege of being 70 years of age and having worked in this 
industry forever, and you know, I look around at what we 
produce, and it's a hell of a lot better today than it was 
before. So yes, that chart tells the story, only it's going to 
get much worse.
    Senator Toomey. Thank you, Mr. O'Malley, and Mr. Chairman, 
I see my time has expired. But if it's okay with you, if we 
could allow the other panelists to respond. If they have any 
comments they'd like to make, I would welcome that.
    Chairman Casey. Thank you. Mr. Greco.
    Mr. Greco. Just to echo Mr. O'Malley, you're essentially 
correct about when you look at future projections of demand for 
U.S. gasoline. It's flat or declining, and the two big drivers 
are the increased ethanol mandate, which under ISA 2007 is 
going to drive you to 20 or 30 percent of the gallon being 
taken up by ethanol or some of the biofuel, and increasing CAFE 
standards.
    So we may be driving more. We may be using more cars on the 
road, but they're going to be using less hydrocarbons, and 
that's only going to continue to increase the pressure on the 
refining sector.
    Senator Toomey. Thank you. Dr. Greenstone.
    Dr. Greenstone. Sure. I would just add that Mr. O'Malley 
raised the important issue of leveling the playing field, which 
was the theme of my testimony. I think, you know, EISA and the 
renewable fuel standard, in some respects I think they were 
efforts to try and level the playing field. I'm not sure 
everyone would agree that they accomplished that in the fairest 
or most efficient way.
    I want to just highlight that we got into the world of 
subsidies for ethanol and other potential replacements for 
petroleum largely because we don't price the social costs--the 
health costs and the carbon costs associated with the use of 
petroleum.
    If we priced those, then we would truly have a level 
playing field, and it would be possible for ethanol and natural 
gas and whatever the other potential replacements for petroleum 
are, to compete on a level playing field.
    Senator Toomey. Of course, if we did that, we'd also have 
to take into account the higher food prices that we have as a 
result of using 40 percent of the corn in gasoline tanks.
    Dr. Greenstone. Senator, I'm not pushing for ethanol or the 
Renewable Fuel Standard. My only point is that currently, 
that's the second-best policy that I think the country has 
wandered into, and it's largely driven by the fact that we 
don't price the negative parts of petroleum currently.
    Senator Toomey. Thanks. Can I just comment on the 
externalities? Refineries are held at very strict environmental 
standards, both for the products they make and for the 
emissions from those refineries. Those are being driven by EPA 
for health reasons and for other considerations. These 
refineries have to compete based on those emissions, and have 
produced and have cleaned up their facilities, so that our air 
is much cleaner.
    We are taking into account those externalities. They're 
being addressed through environmental regulations, and are 
reflected in the fuels we produce and the operations that we 
run.
    Chairman Casey. Thanks very much, Mr. Toomey. Vice Chairman 
Brady.
    Vice Chairman Brady. Thank you Chairman, for hosting this 
hearing. I'm going to ask a tax question of Mr. Greco and Mr. 
O'Malley. But on the regulatory side, a story. The Gulf Coast, 
where I live, refines a bit of energy production in America. As 
a result of high vehicle travel, topography and industry, we've 
had to work hard to lower our ozone emissions over the past 
decade, successfully have.
    We invest in industry about a billion dollars to do that. 
Ironically, some of the key technologies that EPA has mandated 
our refineries to use, to lower NOx and ozone emissions, the 
byproduct is it drives up CO<INF>2</INF> emissions, which we 
are now told we have a problem there.
    It would be wonderful if the EPA's right hand knew what its 
left hand was doing, so that when we make these types of 
investments, we can actually meet the Clean Air standards we 
all want to meet. My question, Mr. Greco and Mr. O'Malley, 
relates to the manufacturing deduction. It was passed in the 
mid-2000s. The goal of it, we looked at the jobs going 
overseas, Ways and Means Committee and others, and said look: 
if a company manufactures, produces, invents here in the United 
States, creates jobs in the United States, you have a lower tax 
rate than if you do that overseas, you get the manufacturing 
deduction, which has worked.
    It is, to my understanding, a key part of the refinery 
puzzle. The President has proposed eliminating that deduction 
for one industry in America, energy. One industry. One 
manufacturing industry in America, energy. So my question is to 
Mr. Greco and Mr. O'Malley, when it comes to the Northeast, 
whose goal is to maintain existing capacity and restart 
capacity that has been lost, if the President succeeds in 
eliminating that manufacturing deduction, does it make it 
easier to bring back that capacity, harder to bring back the 
capacity, or have no impact? Mr. Greco.
    Mr. Greco. When we talk about the industry broadly, as you 
mentioned, this is a broad manufacturing tax deduction. It 
applies to all manufacturing industries. The proposals on the 
table are to single out one industry, oil and gas industry, and 
to eliminate that.
    Any time you change a tax, make a tax change like that 
specifically to one industry in particular, you are going to 
disadvantage that industry relative to its foreign competition. 
So if you want to look at tax policy broadly, which is a true 
national U.S. conversation, we ought to do that. But to single 
out a single industry and a single tax credit for punitive 
treatment relative to other industries, is poor tax policy and 
is not going to support our refining industry.
    Vice Chairman Brady. Thank you, sir. Mr. O'Malley?
    Mr. O'Malley. I have operated refineries in both England 
and Germany, two companies that in fact invented socialism. 
They have lower corporate tax rates than the United States has. 
Anything that would give us less of an advantage on taxes is 
going to make the business more difficult. This business has a 
very low rate of return on a historical basis, about three 
percent per annum over the last 20 years.
    Vice Chairman Brady. Can I stop you there? Can you make 
that point one more time, because we get the impression up in 
Washington that big oil is all one monolith, making money hand 
over fist. Did you just say in the refining sector, the margin 
is how much?
    Mr. O'Malley. The margins are incredibly small. Over the 
past 20 years, rate of return on capital employed in the 
refining business is about three percent. It's a marginal 
business. The majors are leaving this business. When I entered 
the business, about 15 percent was controlled by independents. 
Today, we're up to 60 percent.
    When very, very smart and big and rich companies exit a 
business, there's usually a reason, and the reason is it's a 
low return business.
    Vice Chairman Brady. Does that play into your testimony, 
the point you made early on, that the Northeast has lost these 
refineries because they can't make money?
    Mr. O'Malley. The Northeast lost three refineries because 
they can't make money. I mean Sunoco lost a billion dollars 
over the past three years running these refineries. Certainly, 
Conoco-Phillips would never close a refinery. I speak from some 
base of knowledge. At one of my many career stops I was vice 
chairman of that company.
    I move around a bit. People don't like to keep me too long. 
They closed that refinery because they were losing a lot of 
money on the refinery, plain and simply. Nobody does this to 
hurt people.
    Vice Chairman Brady [presiding]. I would like to keep you 
longer, but our time's expired. So Mr. Duffy is recognized.
    Representative Duffy. Thank you, Mr. Chairman. Excuse me. 
So when we're talking about loopholes here for oil companies, 
those are loopholes exclusively for big oil, right, that you're 
referring to?
    Mr. O'Malley. I'm not aware of any loopholes. We're trying 
to actually carve out a negative loophole by removing a tax 
credit that's applicable to all manufacturing and penalizing 
one industry, that's correct.
    Representative Duffy. So that loophole does specifically 
apply to your industry? You don't want to talk about loopholes 
for big gas and big oil?
    Mr. O'Malley. Just the industry that I understood the 
hearing is on, is the refining industry. We are pure 
manufacturers. Our company produces not one barrel of crude 
oil. We go into the open market and we buy it. We are no 
different than the General Motors Corporation buying steel, 
aluminum, plastics, etcetera, and putting together a car. We 
put together something that drives a car.
    Representative Duffy. Are there some tax threats right now 
that might impact all of you? Are there some changes in the tax 
code that could affect the refining industry that you're aware 
of?
    Mr. O'Malley. Am I personally aware of particular 
proposals?
    Representative Duffy. Yes.
    Mr. O'Malley. Well certainly if the industry is singled out 
and we are included in the industry, and you change the 
depreciation, well sure, that's going to hurt us.
    Representative Duffy. And you can eat that cost though, 
right? You won't pass that on to the end consumer as a refiner?
    Mr. O'Malley. That would be nuts. Look. Just as a point, 
there's an indirect tax that we're going to pay in the year 
2013, emanating from biofuels and cellulosic fuels. It will 
total $120 million. Can we absorb that? I hope we make after 
tax $120 million in that year. No, there is no chance.
    In fact, the biofuels program that is in place will be a 
tax on the American consumer, that will run up in the year, 
well probably 2013, to three to four billion dollars. It's a 
hidden tax. You're producing biofuels and getting these 
renewable certificates, which by the way have in some cases 
been fraudulently issued by companies approved by the EPA, you 
know, a total craziness.
    This whole system that has been constructed is a house of 
cards, and unfortunately that house of cards is collapsing on 
the men and women in the refineries that are being closed down 
or have already been closed down. In essence, if you want to 
know why the refineries were closed down, I would kind of say 
look in the mirror, and we can find the guilty parties.
    Representative Duffy. I want to be clear just on one point, 
and I think we're going to have a second round, and this will 
maybe set up the second round of conversation. Is it because in 
the Northeast, there was overcapacity in our refining sector?
    Mr. O'Malley. Absolutely not.
    Representative Duffy. Okay. So with the closure of these 
refineries, are you now going to import refined gas from other 
portions of the country?
    Mr. O'Malley. The largest refinery in the world is located 
in India. It's run by Reliance Industries. The average wage 
rate there is about 1/15th of what we pay. They essentially 
don't pay income tax. They are classed as an export refinery. 
Is the East Coast taking in fuels from India? Yes, we are.
    Representative Duffy. So my question is can you import 
refined gas at a cheaper price than you can produce it in this 
region?
    Mr. O'Malley. I would say the following. If you have a 
refinery in India that doesn't pay any tax and pays 1/15th the 
wage, they certainly can produce it a bit cheaper than we can.
    Representative Duffy. So is the point that the consumer, by 
way of the closure of these refineries, is now going to benefit 
in this region of the country? Because of these closures, they 
can now access cheaper refined fuel from India and maybe from 
the Gulf area? Is that the point you're making?
    Mr. O'Malley. Well, is that my point? No. My point is that 
the collapse of these refineries, in essence, has been caused 
by the substitution of biofuels, of ethanol into the pool. So 
you shut down these refineries. Now what will replace the 
gasoline, the diesel that were produced at these refineries? 
Imports. Those imports will either come from the Gulf Coast, up 
the Colonial pipeline, or they'll come in by vessel.
    At what price will they be sold? That will be determined by 
the market. Will it be higher or lower? Well, I don't know the 
answer to that.
    Vice Chairman Brady. Thank you, and Dr. Burgess is 
recognized.
    Representative Burgess. Thank you, and I want to thank all 
of you. This has really been an enlightening discussion. Mr. 
O'Malley, I will agree with you about the Energy Independence 
Security Act of December 2007. I have been here six years in 
the United States House of Representatives, and that was by far 
the most troubling piece of legislation that came through.
    I'm on the Committee of Energy and Commerce. It came 
through our subcommittee, our full committee. It came through 
on the floor, came back from the conference committee. I was 
astounded at what a bad idea it was, and really disappointed 
when President Bush signed that legislation.
    We saw the immediate effects with the rise in the price of 
gasoline in the summer, the rate of rise of the price of 
commodities, with food to fuel diversion, our automobile 
manufacturers almost overnight were placed into crisis because 
of having to retool their manufacturing, and on top of all of 
that, you couldn't even read all of that bad news because our 
light bulbs changed.
    So I thought that was a very bad idea, and in fact you may 
be interested. There's a House bill now, a current bill, H.R. 
424 called the LEVEL Act, to back out that ethanol blend wall 
that you described, because of just the reason that you 
described.
    Yeah, E-10 may be a problem for some folks. I spent a lot 
of time down at my lawnmower repair man, because of things that 
happened to those small motors because of the ethanol and 
gasoline. No one has been able to convince me, from the 
Department of Energy or the Environmental Protection Agency, 
that they have done the studies on the engines, to assure that 
E-15 will not be further damaging to those engines, and 
furthermore, I'm not sure who bears the liability for the sale 
of that gasoline that goes into those engines, that then 
subsequently ruins them.
    I suspect as a manufacturer, as a refiner, you probably 
have some concerns about that as well; is that correct?
    Mr. O'Malley. That's very correct. We're not going to 
deliver E-15. We're not going to deliver E-15 because we're 
concerned it will be the same circus that we had with MTBE, 
that we destroyed motor vehicles. I own outboard motors, drive 
around in a little boat, and there's no way I will put gasoline 
combined with ethanol in it, because it will destroy the 
engine.
    The EPA has not done an appropriate scientific study. This 
was rushed through the EPA. Exactly why, I don't know.
    But in all fairness to the discussion, I theorize that 
cellulosic ethanol might have been invented by President Bush 
when he was down chopping wood on the ranch.
    The whole idea of ethanol, again I would point out from my 
industry's standpoint, bring them on. Just don't mandate it and 
don't subsidize it, particularly when we don't have the money 
to subsidize anything. The country's on the road to bankruptcy, 
and here we are talking about more subsidies for this or that. 
The country doesn't have the money for subsidies.
    Representative Burgess. I feel compelled to point that 
although that was the worse legislation I had seen to date, 
there's been a lot worse stuff that's happened since then. If 
you want to talk about subsidies, we can talk about that darn 
health care law, where we are well on the road to ruin from 
that.
    But again, I'd point out to you the LEVEL Act, H.R. 424, 
and I'd be interested in your thoughts on that. I am trying to 
get some enthusiasm for that at the committee level. I just 
have to ask you. You brought up the issue of the renewable 
identification numbers.
    I have had constituents in my office back home in Texas, 
who have purchased RINs from various outfits, only to find out 
that they were basically a parking lot for a church next door, 
and there was no manufacturing or production facility at the 
address. There's an enormous sense that EPA, as an agency, 
seems to be taking a hands-off approach.
    What essentially has happened is we have created the 
mortgage-backed security industry over again, without all the 
transparency and market securitization that was present in that 
industry. You have people literally selling blue sky to 
unsuspecting parties, who then are left holding the bag, and 
the EPA simply says ``well, buyer beware.''
    But it's their program. They set it up. They created this 
nightmare, and unfortunately now we have people who are 
suffering the economic hardship of having bought something that 
in fact did not exist.
    Mr. O'Malley. I have had direct discussions with Bob 
Perciasepe, the number two person at the EPA on this subject, 
and Margo Oge, who's the head of the Fuels Section there, and 
I've expressed my amazement at the fact that they approved 
companies to issue these RINs. They approved them based on a 
fly-by, I suppose, of the church parking lot, and now the 
industry went out and bought these RINs from these approved 
parties, and the EPA says ``well, you made the mistake. You 
have to pay for it.''
    It is one of the worst abuses of government power that I 
have seen in my long career of dealing with the government. 
It's an amazing situation. The only way to cure it, in my view, 
is eliminate the program, because the program is idiotic. Every 
barrel of this biofuel that we buy, we make diesel at a cost of 
somewhere around $4 to the consumer, $4 a gallon.
    When we buy these RINs, that biodiesel costs you six, 
seven, eight dollars a gallon. Is this an intelligent thing? 
And if the population, the ``American people'' that the 
Congress always talks about actually knew this, I believe 
they'd stand up and revolt. But somehow, we've hidden it under 
the covers, and it's just a dumb program.
    Representative Burgess. It absolutely is, and Mr. Chairman, 
I hope we will have the opportunity to have further hearings on 
this, and have the EPA in attendance, because Mr. O'Malley's 
exactly right. This is a massive fraud that's being perpetrated 
on the American people, and it is the mid-level producer who's 
left holding the bag for $10 million, which they can ill afford 
to lose. We're going to drive people out of business, drive 
people into bankruptcy. Is this the type of job creation that 
we should be pursuing? Absolutely not. Mr. O'Malley, thank you 
for your testimony.
    Vice Chairman Brady. Thank you, Dr. Burgess. Mr. O'Malley, 
please don't hold back. You know, feel free to tell us how you 
feel on any of these issues. Chairman Casey----
    Mr. O'Malley. Just at a certain age, you get to say things.
    Vice Chairman Brady. I understand. Senator Casey has 
requested a second round. I know he'll be back as soon as he 
can. So to begin, again, thank you to all the witnesses being 
here today. We've heard concerns about moving to E-15. We've 
heard concerns about new mandates on ultra low sulfur diesel. 
We've heard about new emission standards for industrial plants.
    Since the goal clearly of this hearing, for Chairman Casey, 
Mr. Toomey and others, is to restore refining capacity to the 
Northeast, could Mr. Greco and Mr. O'Malley and any, for that 
matter, could you explain what major new regulations confront 
refineries in particular, and the impact on the likelihood of 
restarting or growing capacity in the Northeast?
    Mr. Greco. Well certainly. Right now, we're confronting a 
variety of new regulations. We're obviously complying with 
those that are on the books, those are the law. But EPA is 
moving forward very aggressively in a number of areas. We're 
looking at fuel changes in Tier 3, which includes sulfur and 
RVP changes. We're looking at stationery source controls on 
CO<INF>2</INF> emissions, as well as on criteria pollutants, 
NOx, Sox, those types of pollutants.
    So we're looking at that whole range of controls on 
emissions. These are all at the point where EPA is moving 
forward. We have not seen proposals yet on these. We have not 
seen a justification for these rules yet. So our basic message 
to EPA is help us understand. Explain what the need is for 
these, justify the need before you go ahead with the proposal.
    The typical process is to release the justification at the 
same time you release the proposal, and then they get finalized 
together. That doesn't strike us a good approach to 
policymaking.
    Vice Chairman Brady. In the case of the Gulf Coast, where 
EPA technology mandates reduced NOx and ozone, but drove up 
CO<INF>2</INF>, is there a collaborative way where industry can 
work with our regulators to achieve those clean air goals, but 
do it in a way that doesn't shut down refineries, doesn't drive 
up the price of energy?
    Mr. Greco. Well, we tried to work collaboratively with the 
government. We clearly, we're the experts. We think we know how 
to run our facilities, and how best to implement requirements 
cost-effectively. The challenge is, as Mr. O'Malley mentioned, 
is EPA has taken a very different view of things. I think the 
E-15 is a very good case in point.
    You've got the auto industry, you've got the oil industry, 
you've got marketers. You've got small engine manufacturers. 
You pretty much have most everyone except the ethanol 
manufacturers, saying this is premature and this is a bad idea. 
But EPA went forward and approved those partial waivers, even 
while ongoing research was being conducted by the oil industry 
and the auto industry.
    In fact, we're looking at finalizing a report next week, 
which will have more information come Tuesday about work that 
the auto industry and the oil industry has done, looking at E-
15 compatibility, and it just underscores our concerns, that 
this was a hasty judgment and one that was politically driven.
    Vice Chairman Brady. If the EPA is successful on E-15, more 
ethanol blending, what's the impact on refineries?
    Mr. Greco. Well certainly, we're confronted with this huge 
ethanol mandate, biofuels mandate that we have to meet. EPA is 
portraying this as maybe helping you avoid this blend well, 
when we would saturate the market. At best, assuming E-15 was 
as good as EPA says it is, and assuming it could be used in all 
the vehicles EPA says it can be used in, it might extend the 
blend wall a year or two.
    But we're talking about a program that we have another 
decade or more than we have to blend ethanol in, and it's not a 
solution. The true solution in our mind is right-sizing the 
program. You need to adjust the ethanol mandate, the biofuels 
mandate to what the vehicle fleet can safely use, and we're 
very close to exceeding that where we are right now.
    Vice Chairman Brady. Thank you. Mr. O'Malley or any of the 
witnesses want to comment?
    Mr. O'Malley. I would comment that the only reason for E-15 
is to drive up the use of ethanol, to take more corn out of the 
food cycle and put it into the fuel cycle. There is no 
justification for E-15. It's a program that I don't know what 
price is going to be paid for it, but again, not holding back, 
it's nuts.
    Vice Chairman Brady. Sure. Dr. Moss, in your testimony, if 
I understood it, you suggested maybe a future potential for 
higher gas prices on the East Coast based on increased market 
concentration, due to, obviously, these refinery closures. Can 
you elaborate exactly how you foresee that occurring, and if a 
refinery raises the price of gasoline above cost, what happens? 
How do other refineries react?
    Dr. Moss. Well, that is essentially the thrust of my 
testimony. Economists and antitrust enforcers tend to worry 
about industries that become highly concentrated, because 
obviously with fewer suppliers, those industries or markets are 
more conducive, potentially, to the exercise of market power, 
because firms can indeed influence the market price, because 
they control a good portion of the market, or firms can band 
together.
    Vice Chairman Brady. Can I ask you a trend question?
    Dr. Moss. Sure.
    Vice Chairman Brady. I get the impression in your testimony 
that you foresee more integration in the industry. But I've 
noticed a number of companies are actually breaking up, 
upstream and downstream, in part, I believe, because refining 
is a very tough, low margin tough business to survive in. So 
isn't the trend going the opposite direction?
    Dr. Moss. From what I read and understand, yes, there has 
been sort of a deintegration, from a vertical perspective, in 
the industry. So and I mention that that might be a mitigating 
factor. If firms are--if the concern is that fully integrated 
firms will use their market position to leverage market power 
into another level of the industry.
    If there's deintegration, then that may become less of a 
concern. However, the refining market in the Northeast, as I 
noted, is very highly concentrated with just two firms, after 
all of these closures, accounting for almost 90 percent of 
capacity. I think that fact pattern leaves competitive 
concerns, even vertical concerns squarely on the table, and 
certainly with a high concentration, as we see in refining, 
with just again the two firms controlling most of the output.
    We would potentially still worry about just restricting 
output to raise prices as well.
    Vice Chairman Brady. Thank you, Dr. Moss. Mr. Duffy.
    Representative Duffy. Mr. Greenstone, did you say that you 
were on the President's economic team; is that correct?
    Dr. Greenstone. During the first year of the 
administration, I was the chief economist at the Council of 
Economic Advisers.
    Representative Duffy. Okay, and listening to your 
commentary, you were talking about the social costs of 
different fuels that we use. You were talking about coal, but 
there's a social cost to the use of coal and also a social cost 
to the use of oil, and maybe a less apparent cost to maybe wind 
or solar or natural gas, right?
    Dr. Greenstone. That's correct.
    Representative Duffy. And therefore the government maybe 
should step in and increase the cost of coal or gas 
prematurely, or the government should step in and try to reduce 
the cost of wind, solar or natural gas, is that right? The 
government should come in and try to make a play on the social 
cost?
    Dr. Greenstone. Yes. Thank you for the question, 
Congressman Duffy. I think the point I was trying to make is 
when we consume electricity that's generated from fire and coal 
plants right now, or various other energy sources, we pay 
whatever comes across our utility bill. But that's not the only 
cost we pay. In addition, we pay with shortened lives, higher 
health care bills, changing climate, weakened national security 
when it comes to petroleum. Just because those don't show up on 
the bill currently, that doesn't mean we're not paying them.
    Representative Duffy. Okay, and you're a proponent of 
natural gas; is that right?
    Dr. Greenstone. No. I'm a proponent of leveling the playing 
field for all energy sources. So what does that mean in 
practice? That means in practice that when we make our energy 
choices as consumers, the prices should reflect the cost of 
producing the kilowatt hour of coal, but also all the other 
costs that consuming that kilowatt hour of coal produces.
    Representative Duffy. So in essence, in your version, we 
want to see the cost of oil go up, to take into account the 
cost of lives and climate change and global warming, right?
    Dr. Greenstone. The idea is that we're paying those costs 
now, but we're not able to make choices that reflect, that 
recognize those costs.
    Representative Duffy. I want to be clear, that you want 
that to be reflected in the end price of that product; correct?
    Dr. Greenstone. I think we as a society would be able to 
make better choices if the price, the end price of that product 
reflected the full social cost.
    Representative Duffy. So in essence, you believe that the 
end cost then should be higher; correct?
    Dr. Greenstone. It depends on the energy source.
    Representative Duffy. Let's use gas. Not natural gas, but 
gas for petroleum, yes.
    Dr. Greenstone. So yes. So we've been talking as a panel, 
some of the EPA regulations are meant to help reflect that 
price, and my own view is that not all of those social costs 
are recognized.
    Representative Duffy. They only gave me five minutes. So I 
want to be very clear on what you're telling us here. You would 
like to see gas, petroleum, so gas at the pump, reflect the 
actual social cost of the use of that energy source, which 
would mean it would have to go up in price, because today, per 
your testimony, it doesn't accurately reflect the social cost 
in the price; yes or no?
    Dr. Greenstone. Congressman Duffy yes, and all other energy 
sources as well.
    Representative Duffy. Right, and so if you do that, if you 
want to make sure that we increase the cost of our gas at the 
pump, and in essence you might then see more use of wind and 
solar and natural gas, in that calculation, have you taken into 
account the social cost of the men and women who are sitting in 
this room today, that are steelworkers and boilermakers, who 
will lose their jobs because you, as an advisor to the 
President, say that as a social policy, I want to see more 
Americans use a different energy source. Have you considered 
then the loss of these men's jobs for that policy?
    Dr. Greenstone. That's an important question, and of 
course, when one causes changes in the economy, people lose 
their job and that's a real cost. In an adequately defined 
system, they would be recognized. Let me also make----
    Representative Duffy. You're willing to bear that cost 
though, just to be clear?
    Dr. Greenstone [continuing]. Sorry?
    Representative Duffy. You're willing to bear the cost of 
these men's jobs for that social policy?
    Dr. Greenstone. Well, I think it's very important, I think 
you're raising a really important part of----
    Representative Duffy. I only have 30 seconds. You're 
willing to bear that cost of the social policy?
    Dr. Greenstone [continuing]. If I could finish. In 
addition, I think part of that calculation has to be, and I'm 
glad that Senator Casey has returned to the room, the 
tremendous opportunities that appear for people who would 
produce the alternative.
    Representative Duffy. And again, I guess I don't know how 
well our boilermakers are at making windmills or solar panels, 
or our steelworkers. But to be clear, as we've talked about 
natural gas in your testimony, I think it's clear that natural 
gas is coming from fracking, and I wonder if you're supportive 
of fracking, and if you have any issues with the EPA regulating 
the refining of natural gas, just the same as we've supported 
the EPA's regulation of refining of petroleum?
    I mean there's a whole set of issues that start to spiral 
out here, when you start to take into account the social policy 
which you reference, and I think you must have advised the 
President on these policies, because we see more and more 
implementation of these policies, that have a real impact, not 
just on the men that I see in this room today, but also a lot 
of the union members in my district who are losing their jobs 
because of EPA regulation, even outside of oil, and I know my 
time is up, and I'm sorry for going over.
    Dr. Greenstone. Is there time for me to answer your 
question?
    Vice Chairman Brady [presiding]. There's a little bit of 
time for both, if that's all right.
    Representative Duffy. If I could have--thank you.
    Chairman Casey. Everyone's left here, so I think if I give 
you another minute or minute and a half, that would be great.
    Dr. Greenstone. So I believe your question--I'm sorry. I 
think the question--maybe you could repeat the question?
    Representative Duffy. I was moving on to fracking, and 
there's a cost. If you want to say natural gas is clean and as 
a social policy you like that over petroleum, do you also say 
you support then fracking, which produces natural gas?
    And then when you look at EPA regulations, are you okay 
with minimizing those regulations on the refining of natural 
gas, which is needed, as opposed to the refining regulations 
that we see for petroleum from the EPA?
    Dr. Greenstone. Yeah, okay. So let me just clearly state. I 
stopped working in the White House in February 2010. I would 
be--I think it would be slightly delusional to think that my 
thoughts stuck around so clearly, that the President is still 
searching the hallways looking for them all the time.
    Representative Duffy. I think he's embraced them, but go 
ahead.
    Dr. Greenstone. But let me just say whatever the social 
costs are, be they from environmental damage associated from 
fracking, be they from greater air pollution, be they from 
greater CO<INF>2</INF> emissions, they should be reflected in 
the energy prices. You know, candidly, until we have a system 
where those prices are reflected, we'll continue to make 
choices that cause, you know, cause shortened lives, cause 
climactic changes, and constrain our foreign policy in ways 
that are adverse.
    Representative Duffy. And if I could just have one more 
point. My concern is what bureaucrat makes that decision? What 
bureaucrat makes that policy, that social decision? Or does the 
bureaucrat want to give that decision to the boilermakers, 
because I bet that the boilermakers and the steelworkers have a 
different social philosophy than a bureaucrat that works in the 
administration, or any other one of these agencies in 
Washington, D.C., and there's a differential in social policy 
and social view.
    Dr. Greenstone. Congressman, I think you're raising a very 
important question, who makes the decision, and I think it's 
important to underscore that that decision's being made all the 
time today. With respect to greenhouse gases, it's largely 
being made that that has no damages.
    So it's not that this would be a change in someone making 
the decision. The decision is made today; it's just made in a 
very particular way that doesn't reflect the full cost.
    Representative Duffy. But a bureaucrat isn't then making 
the decision to increase the cost because of their social 
analysis today. My time is up. I'm sorry. I yield back to 
Senator Casey.
    Dr. Greenstone. Thank you for your interest in my 
testimony.
    Chairman Casey. Congressman thank you, and Doctor, thank 
you. I guess when I left, I missed some engagement here. But I 
think we have some agreement here, number one, that we don't 
want refineries in Pennsylvania or anywhere else to close. I 
hope we agree on that, and we're trying to push hard on that.
    Another area where we might have consensus, I just want to 
raise this; others can comment on this or respond to it. Dr. 
Moss, I just wanted to ask you about a piece of legislation 
which is one, I don't consider this some kind of magic wand, 
but one tool we can use to have an impact on oil prices.
    Legislation in the Senate, the so-called NOPEC Act, that 
would allow, give the Justice Department the authority, which 
it does not have now, to bring price fixing or antitrust cases 
against OPEC. I wanted to get your sense of that legislation, 
and the impact, and if you can make any assessment as even, you 
know, a numerical analysis in terms of what that would mean 
potentially for lower crude oil prices.
    Dr. Moss. That's a good question, Senator, and I think it's 
been posed numerous times in the last several years. I think 
the honest answer is that the NOPEC legislation raises a rather 
snarly group of issues. If you talk to antitrust experts, those 
who are steeped in knowledge and practice involving application 
of the U.S. antitrust laws, reaching our laws to OPEC would be 
very, very difficult, as they stand today.
    OPEC obviously does not operate within the United States 
borders. There has been concern about the marketing arm of the 
Venezuelan oil company operating within the U.S. I believe 
that's CITGO. There have been efforts to get to OPEC indirectly 
through the operation of CITGO in the United States.
    But there are hurdles, applying laws against sovereign 
entities outside the United States, I think, would be largely, 
that would be difficult to do. Giving the U.S. DOJ the 
authority to apply antitrust laws against OPEC, I think, it 
also poses some concerns and hurdles, not the least of which is 
to consider what the political implications of that would be, 
in terms of reaching out to OPEC and potentially setting up an 
antitrust enforcement action.
    So I can't come out one way or the other. I think it's very 
clear that if OPEC did not control world crude oil prices, 
prices would be lower, and there is some disagreement or some 
disagreement about whether OPEC has actually been as effective 
in setting and maintaining prices over the last several years.
    The structure of OPEC has changed, and whether the 
agreement is as tight as it used to be, I think, is in question 
at this point.
    Chairman Casey. I know we may have others that might have a 
comment. If you could briefly comment, only because we're 
coming to the end, and I know because of my voting schedule 
here, it's been one of those days here. I've had to interrupt 
the hearing, so I'm sorry about that. But I know we have to 
wrap up. Vice Chairman Brady has no more questions, and I don't 
either. But I know we're again limited on time, and I'm sorry 
about that.
    Mr. Greco. Just one quick comment. API opposes NOPEC. It 
raises very serious constitutional questions going forward. 
What we really should be focusing on is how do we develop our 
own resources? If we're concerned about a resource-constrained 
world, we just had a recent reevaluation of U.S. resources that 
raise it tremendously.
    We can be an energy powerhouse. We ought to be competing 
and developing our own domestic resources, rather than 
assessing punitive damages or trying to against other 
countries.
    Mr. O'Malley. I would second that, and support that. The 
biggest thing we can do on oil prices is produce more oil in 
the United States, and we're on a road where we can have 
tremendous production in the future, if we would just let the 
industry do it.
    Chairman Casey. We're thankful some of those numbers are 
up. Doctor?
    Mr. O'Malley. Excuse me?
    Chairman Casey. No. I said I'm thankful that some of those 
numbers are up now, as opposed to a few years ago.
    Mr. O'Malley. They're going up fast.
    Chairman Casey. Doctor?
    Dr. Greenstone. I don't have much to add, just to note that 
there's been this incredible increase in domestic production, 
and I think we're, you know, for what was unimaginable even, 
you know, five years ago, could be imaginable, which is we 
could well be energy independent when it comes to petroleum in 
the foreseeable future.
    Chairman Casey. Well thanks everyone. I know what we'll do 
is leave the record open for how many days? Five days, for 
other submissions to the record. I know that I mentioned 
earlier that we had representation from individual unions, and 
I know some of their leaders, if they are not here now, were 
here. Dave Miller, the president of Steelworkers Local 10-901, 
Dennis Stefano, president of 10-234, and John Clark, the 
business manager of the Boilermakers 13.
    I think Jim Savage from Local 10-01 of Steelworkers was not 
here, but I wanted to commend the work of those unions and 
their leaders who are here with us, and of course the work that 
they've done with us on refineries. We're grateful for the 
witnesses who are here today, and apologize for some of the 
problems we had with scheduling.
    But this hearing was scheduled weeks ago. Votes get 
scheduled sometimes within hours, and we're sorry about that. I 
want to thank our Vice Chair for being here, coming all the way 
across the Capitol again to sit with us, and I think I owe him 
a visit across the way. We're adjourned.
    [Whereupon, at 4:13 p.m., the hearing was adjourned.]
                       SUBMISSIONS FOR THE RECORD

     Prepared Statement of Senator Robert P. Casey, Jr., Chairman,
                        Joint Economic Committee
    Good afternoon. Today's hearing is focused on the impact that 
closures of petroleum refineries serving the Northeast could have on 
prices at the pump in the Mid-Atlantic and New England regions.
    Since September 2011, two refineries in the Philadelphia area and 
one major Caribbean export refinery supplying the East Coast have 
closed. Additionally, a third Philadelphia-area refinery is slated to 
shut down this summer.
    In addition to the immediate impact on gas prices, we will explore 
the long-run costs to the economy associated with higher gasoline 
prices, as well as actions that can be taken to encourage the adoption 
of cleaner, cheaper alternatives to petroleum, such as natural gas.
    While the situation remains fluid with the potential sale of the 
three Philadelphia-area refineries, I am concerned that the Northeast 
is losing needed refining capacity.
    I am especially concerned that this loss in refining capacity is 
happening at a time when consumers are already facing rising gas 
prices.
    With limited pipeline capacity to import from the Gulf Coast, this 
loss of refining activity in the Northeast will increase the region's 
dependence on European gasoline and diesel and lead to higher prices 
for consumers.
    A recent Energy Information Administration report detailed the 
possible consequences of this reduction in refining capacity, which 
include greater price volatility and potential shortages in the 
Northeast.
    I am focused on ensuring that changes in refining capacity in the 
Northeast have as little impact as possible on energy prices, on jobs 
in our communities, and on the economic recovery.
    I have urged the Administration to become directly involved in this 
issue.
    I met with workers at the three Pennsylvania refineries--
Philadelphia, Trainer and Marcus Hook--to discuss the impact that 
shuttering the refineries would have on the workforce. Together, these 
refineries represent half the refining capacity in the northeastern 
United States.
    I would like to recognize representatives from the United 
Steelworkers Local 10-1, Local 10-901 and Local 10-234 who are in the 
audience this afternoon. Also attending today's hearing are members 
from the International Brotherhood of Boilermakers Local 13 and 
Steamfitters Local 420.
    Closure of these facilities would likely mean that the Northeast 
region will experience a decrease in the supply of Ultra-Low Sulfur 
Diesel (ULSD), at the same time there will be an increase in demand for 
ULSD as both a transportation fuel and for home heating.
    With closure of the Northeastern refineries, refining activities 
will be centralized in the Gulf Coast region. This will affect the 
price of gasoline, diesel and heating oil and lead to potential 
shortages of those fuels in the Northeast.
    An early or prolonged cold spell next winter could send home 
heating prices skyrocketing--hitting consumers hard.
    Today, gas prices are again pushing $4 a gallon--well ahead of the 
summer driving season. We are facing higher prices despite the fact 
that U.S. production of oil is at its highest level since 2003. For the 
first time in a decade, the United States is importing less than half 
the oil we use.
    Yet, with only 2 percent of the world's proven oil reserves, 
there's little impact the United States can have on the price of oil--
which is set by supply and demand in a global market--by addressing 
only the supply side of the equation.
    Focusing on U.S. demand for oil offers more promise. The United 
States consumes more than 20 percent of the world's oil. U.S. 
dependence on oil to meet its transportation needs leaves consumers 
with few choices, making them vulnerable when oil and gasoline prices 
rise.
    By promoting policies that reduce our dependence on foreign oil, 
the United States can help to reduce global demand for oil and, 
ultimately, prices.
    If oil accounted for a smaller share of our energy needs, the U.S. 
economy and American consumers would be less vulnerable to spikes in 
oil prices.
    It's clear that we need to accelerate natural gas development and 
use. Natural gas is produced right here at home--creating jobs. It's 
clean, with lower emissions than traditional gasoline. And it's cheap.
    Converting vehicles, especially commercial vehicles, to run on 
natural gas could play a role in the move to cleaner energy 
alternatives.
    In the coming weeks, I will introduce legislation that provides 
states with funding and flexibility to develop initiatives that:

    <bullet>  Encourage the use of natural gas as a transportation 
fuel; and
    <bullet>  Encourage public and private investments in natural gas 
vehicles and transportation infrastructure.

    These actions will encourage the use of natural gas--an energy 
source which the United States has in abundance--while reducing our 
dependence on petroleum and vulnerability to oil price spikes.
    We have a terrific group of witnesses this afternoon, with wide 
expertise on energy issues. I look forward to each of your testimony.
                               __________
    Prepared Statement of Representative Kevin Brady, Vice Chairman,
                        Joint Economic Committee
    Today's hearing is most appropriate in light of high gasoline 
prices and a White House energy policy that is coming home to roost, so 
to speak. While the President has touted an ``all of the above'' energy 
policy, his actual policies have been anything but that. They have been 
decidedly unfavorable to America's energy manufacturing industry--and 
that is true for crude oil production as well as refining.
    The Administration has thwarted oil and gas development on federal 
lands and offshore. It imposed a hasty and prolonged moratorium on Gulf 
of Mexico drilling and then hindered resumption of exploration through 
slow permitting. And most recently, it has denied increasing the 
assured and safe supply of crude oil from our ally Canada through the 
Keystone pipeline to U.S. refineries.
    The President also risks the jobs of American energy workers by 
threatening punitive tax treatment of energy manufacturing, for 
example, by singling this sector out and rescinding incentives to 
encourage job creation and manufacturing here in America. Why is energy 
manufacturing different than any other form of manufacturing? Why are 
these good-paying energy jobs deemed expendable by the White House, and 
why is the President himself pushing taxes that encourage energy 
companies to send these jobs overseas?
    This manufacturing deduction, by the way, is an important incentive 
to refining and will further make these projects less economically 
viable if the President has his way.
    The Administration is also pursuing policies that will shrink and 
punish petroleum refining both by forcing it to blend in alternative 
fuels even when they do not yet exist and by mandating ever more 
stringent emission standards even when the costs are huge and the 
benefits are uncertain.
    America is experiencing an energy revolution with the potential to 
become the largest energy-producing country on the planet. But let's be 
clear, the rise in energy manufacturing driven by new technology is 
occurring on private lands, not federal lands. In fact, at President 
Obama's request, his Administration has launched a flurry of regulatory 
attacks on oil shale development in America, leaving the country to 
pray that Washington will not smother the technology in the crib with 
more layers of regulation.
    Senator Lisa Murkowski in a recent editorial entitled ``America's 
Lost Energy Decade,'' pointed out that in 2002 the U.S. Senate decided 
against opening a small section of the Arctic National Wildlife Refuge 
to oil and gas production. The most cited reason at the time was that 
it would take too long--ten years--for the oil to reach the market. 
Now, ten years later, the White House is pleading with Saudi Arabia to 
produce more oil when we could be controlling our own supply.
    Senator Murkowski correctly concluded that long lead times should 
be a reason to approve drilling quickly, not to continue putting it 
off.
    Other non-OPEC countries do not lock away their resources, not even 
pristine Norway, which is the world's seventh largest exporter of oil 
and second largest exporter of natural gas.
    Our regulatory tale is one of self-inflicted wounds--cutting off 
our nose to spite our face. This country is blessed with resources that 
can be developed, produced, and processed safely and cleanly to support 
economic growth and technological development, which in turn will 
position us to further advance the state of the environment. All of 
this is critical to ensuring that America continues to have the 
strongest economy in the world throughout the 21st century.
    Refinery closures and job losses are painful but even more so when 
our own government's policies contribute to them. Americans want to 
balance a healthy economy with a clean environment. They don't want 
their factories shut down effectively by order of the government and 
products brought into the country from places that are much less 
environmentally committed than the United States.
    Regulators need to take a rational, balanced approach that 
recognizes that ignoring economic consequences hurts the very citizens 
whose welfare they are charged to protect.
    First, our regulatory mechanisms at least should be functional. It 
makes no sense whatsoever to impose blending requirements on refiners 
for cellulosic ethanol that does not exist in requisite quantity and 
then fine them for not using it. It makes no sense to push corn ethanol 
consumption to a level that invalidates car engine warrantees. And it 
makes no sense to impose sulfur content limits on gasoline that may 
increase CO<INF>2</INF> emissions when the EPA is trying to reduce 
those emissions as well. These are unforced policy errors we cannot 
afford to commit, especially in this struggling economy.
    Second and more fundamentally, the Administration, lawmakers, and 
regulators must ask themselves if they are pursuing radical solutions 
that may never come to fruition while missing opportunities for steady 
and certain improvements. Are they provoking protracted lawsuits and 
delaying projects? Are their actions causing older, more polluting 
equipment to stay in place longer? Are they driving America's firms out 
of business and costing us jobs while inviting more dependence on 
foreign countries with worse pollution records?
    Regulation must facilitate the market's functioning, neither 
treating private enterprise as an adversary nor pressing for 
preconceived outcomes in one sphere while ignoring collateral damage in 
others. Devising good regulatory policy doesn't have to be intensely 
adversarial. It can be more collaborative, engage the incentives of the 
private sector, and above all be mindful that it ought to serve 
economic growth and technological development, the ultimate sources of 
better living standards.
    I now look forward to hearing our witnesses' testimony and probing 
their ideas for better regulation of oil refineries and in general.
                               __________
   Prepared Statement of Diana L. Moss, Vice President and Director, 
                      American Antitrust Institute
                            i. introduction
    I would like to thank Chairman Robert Casey and the members of the 
Joint Economic Committee for holding this hearing on the loss of 
refining capacity in the Northeast and its potential impact on the 
prices of refined petroleum products (RPPs). I appreciate the 
opportunity to appear here today.\1\ The American Antitrust Institute 
is a non-profit education, research, and advocacy organization. Our 
mission is to increase the role of competition in the economy, assure 
that competition works in the interests of consumers, and sustain the 
vitality of the antitrust laws. The AAI has long been involved in 
analyzing the competitive implications of issues in the energy 
industries, including electricity, natural gas, petroleum, and 
renewables.
    Much of the analysis available to date on refinery closures in the 
Northeastern U.S. focuses on the relatively straightforward economics 
of their potential impact on RPP prices such as gasoline, heating oil, 
and ultra low sulfur diesel (ULSD). Perhaps the most pressing question 
for policymakers is whether the current downturn in the refining sector 
in the Northeast is part of a cyclical trend--and will rebound at some 
point in the future--or if it represents a structural shift that could 
reflect a permanent change in refining fundamentals. The answer is that 
it is too soon to tell. Nevertheless, the industry may be at a critical 
juncture where policy responses are particularly important.
---------------------------------------------------------------------------
    \1\ Diana Moss is Vice President and Senior Fellow, American 
Antitrust Institute (AAI) (www.antitrustinstitute.org). This testimony 
has been approved by the AAI Board of Directors.
---------------------------------------------------------------------------
    My testimony today acknowledges the importance of underlying 
economics as integral to the larger picture surrounding refinery 
closures. However, I will focus primarily on perhaps a less obvious 
aspect of the problem, namely the importance of the competitive 
landscape in downstream petroleum markets in analyzing the implications 
of refinery closures and crafting appropriate policy responses. This is 
not to say that there is a competitive problem, only that refinery 
closures fundamentally alter the structure of markets in ways that 
potentially change competitive incentives facing suppliers.
                             ii. background
    Refined petroleum product price dynamics in the U.S. and the 
Northeast, in particular, are affected by a complicated and changing 
landscape. This backdrop is influenced, as always, by the world crude 
oil market, changes in petroleum resource exploitation in the U.S. and 
Canada, and shifts in how the U.S. utilizes its complex networks of 
downstream assets, including refineries, product pipelines, and 
terminaling and storage facilities. Price dynamics are also affected by 
changes in domestic consumption driven by economic recession beginning 
in 2008, the effects of which are still lingering but may reverse in 
time. A host of other factors, however, may signal a more permanent 
downturn in oil consumption, including: increases in fuel economy 
standards, the ethanol content of fuels, and the use of pure bio-fuels. 
Finally, fundamental changes in the U.S. refining industry, 
particularly in the Northeast, are an integral part of the picture.
    The pattern of crude oil consumption has changed in ways that are 
important for an analysis of refining in the Northeast. For example, 
between 2004 and 2010, oil consumption in the U.S. and Europe fell by 
almost six percent. Consumption in China, the Middle East, Latin 
America, and other Asian countries, however, increased by about eight 
percent.\2\ In the early 2000s, Saudi Arabia was the largest exporter 
of crude oil to the U.S. Between 2004 and 2010, however, those export 
levels fell by 27 percent. Exports to the U.S. from Venezuela and 
Mexico also fell off and Canada, which is now the leading exporter to 
the U.S., increased exports by 18 percent.\3\
---------------------------------------------------------------------------
    \2\ Federal Trade Commission, Gasoline Prices and the Petroleum 
Industry: An Update Figure 3, 7 (September 2011), available at http://
www.ftc.gov/os/2011/09/110901gasolinepricereport.pdf.
    \3\ FTC, supra note 2 at Table 10 (p. 59).
---------------------------------------------------------------------------
    In approaching the problem of refinery closures in the Northeast 
U.S. it is, as a preliminary matter, important to point out that U.S. 
gasoline prices are heavily influenced by the dynamics of cartelized 
world crude oil markets. The U.S. has little control over OPEC. 
Currently, crude prices make up about 72 percent of retail gasoline 
prices in the U.S.\4\ While membership in OPEC has changed somewhat, 
and there is some ongoing debate as to how effective the cartel is in 
setting and maintaining crude prices, it is widely held that higher 
prices contribute in substantial part to higher prices of gasoline than 
what would emerge without the cartel.
---------------------------------------------------------------------------
    \4\ Energy Information Administration, Gasoline and Diesel Fuel 
Update (April 16, 2012), available at http://www.eia.gov/petroleum/
gasdiesel/.
---------------------------------------------------------------------------
    When the spotlight falls on actual or projected increases in RPP 
prices in the U.S., there is sometimes a tendency to overplay the role 
of OPEC in price determination. To be sure, crude oil prices factor 
significantly into downstream prices. However, domestic downstream 
activities--including refining, distribution of refined products to 
storage terminals, and wholesale and retail marketing--also play an 
important role. These activities make up a not insignificant 17 percent 
of the final retail price of gasoline.\5\
---------------------------------------------------------------------------
    \5\ EIA, supra note 4.
---------------------------------------------------------------------------
    The impact of downstream activities on RPP prices is amplified by 
what we see happening in the Northeastern U.S. refining markets. 
Relative to other PADDs, PADD 1 has special features are that are 
potentially relevant to competition. For example, PADD 1 has the: (1) 
fewest number of refineries; (2) largest number of refinery idlings and 
closures; (3) highest levels of market concentration and increases in 
concentration over time; (4) highest levels of wholesale market 
concentration; (5) lowest refining capacity utilization rates; and (6) 
greatest dependency on imports of petroleum products from other PADDs 
and abroad. My testimony touches on each of these factors, which 
collectively draw attention to the competitive landscape.
                    iii. refinery closures in padd 1
A. Market Concentration
    Refining market developments in PADD 1 stand in stark contrast to 
those in other PADDs, where concentration has remained relatively 
stable over the last several years. Refinery idlings and closures in 
PADD 1 are attributed to poor economics such as low refining margins. 
Many refiners are devoting resources to more profitable upstream 
activities such as exploration and production. Sunoco has publically 
stated that it is leaving the refining business and has (or plans to) 
idled or closed three refineries in the last three years totaling 
658,000 barrels per day of crude distillation capacity.\6\
---------------------------------------------------------------------------
    \6\ Sunoco is Leaving the Refining Business, energyandcapital.com, 
September 6, 2011, http://www.energyandcapital.com/articles/sunoco-is-
leaving-the-refining-business/1750.
---------------------------------------------------------------------------
    The number of refineries in the U.S. continues to decline. Between 
1985 and 2011, there was a 31 percent decrease in the number of 
refineries in the U.S. and a 52 percent decrease in PADD 1.\7\ While 
there are fewer refineries in the U.S., their average capacity has 
increased over time, due to the development of higher capacity, 
technologically advanced facilities, and the networking of refineries. 
These fewer, larger refineries account in large part for the fact that 
of 45 total refiners, the top 10 account for 75 percent of total U.S. 
refining capacity.\8\ In PADD 1, there were 14 operating refineries in 
2004.
---------------------------------------------------------------------------
    \7\ Energy Information Administration, ``Number of Capacity of 
Petroleum Refineries,'' (number of operating refineries), available at 
http://www.eia.gov/dnav/pet/pet_pnp_cap1_a_(na)_8OO_Count_a.htm.
    \8\ Anthony Andrews, Robert Pirog, and Molly F. Sherlock, 
Congressional Research Service, The U.S. Oil Refining Industry: 
Background in Changing Markets and Fuel Policies 17 (November 22, 
2010), available at http://digital.library.unt.edu/ark:/67531/
metadc29627/.
---------------------------------------------------------------------------
    By the beginning of 2011, that number had fallen to 10.\9\ By mid-
2012, after the closure of Sunoco's Marcus Hook and Philadelphia 
refineries and ConocoPhillips' Trainer refinery, and assuming no idled 
facilities come back on line, there will be 7 operating refineries. 
These closures represent a 43 percent loss in capacity from 2011 
through 2012.\10\
---------------------------------------------------------------------------
    \9\ EIA, supra note 7.
    \10\ PBF Energy's Delaware City Refinery came back on line in 
October of 2011.
---------------------------------------------------------------------------
    The PADD system, developed during World War II to allocate fuels 
from petroleum products, does not accurately capture the concept of a 
market, either from an economic or antitrust perspective. PADD 
boundaries are encompass far broader areas than what consumers would 
consider in searching out lower-priced supplies, or suppliers that 
could undercut prices increases elsewhere in the market. Such markets--
determined by transportation constraints and production cost 
differentials--are likely to be much smaller and more concentrated than 
PADD-based markets.\11\ Nonetheless, PADD-based statistics do give us 
some sense of changes in market structure that are relevant to today's 
inquiry into refinery closures.
---------------------------------------------------------------------------
    \11\ The FTC's analysis of relevant markets in petroleum merger 
cases is a good illustration of this concept, whereby concentration is 
significantly higher than on a PADD-basis.
---------------------------------------------------------------------------
    Refinery idlings and closures are reflected directly in changes in 
market concentration in PADD 1. In 2004, for example, concentration in 
PADD 1 was about 2,700. But by the end of 2010, concentration reached 
3,300 HHI.\12\ The Federal Trade Commission (FTC) notes that these 
changes are due largely to the Valero-Premcor merger. However, 
increases in concentration also reflect changes in the distribution of 
ownership associated with refinery closures. For example, the year-end 
2010 statistics reflect the idling of Chevron's Perth Amboy refinery, 
PBF's Delaware City refinery, Nustar's Savannah refinery, and Western's 
Yorktown refinery. These closures drove up the market shares of Sunoco 
and ConocoPhillips significantly, increasing market concentration.
---------------------------------------------------------------------------
    \12\ FTC, supra note 2 at Table 13 (p. 62).
---------------------------------------------------------------------------
    Closure of ConocoPhillips' Trainer refinery and Sunoco's Marcus 
Hook refinery in late 2011, coupled with the restart of PBF Energy's 
Delaware City refinery slightly lowered market concentration. However, 
three major players (ConocoPhillips, Sunoco, and PBF Energy) continued 
to account for about 93 percent of refinery capacity. With the planned 
closure of Sunoco's Philadelphia refinery in mid-2012 (if a buyer 
cannot be found), market concentration will increase to almost 4,000 
HHI. This will leave only two firms (PBF Energy and ConocoPhillips) 
that account for 86 percent of refinery capacity.\13\ This will cause a 
significant change in the structure of the PADD 1 market.
---------------------------------------------------------------------------
    \13\ Energy Information Administration, Refinery Capacity Data by 
Individual Refinery as of January 1, 2011, available at http://
www.eia.gov/petroleum/refinerycapacity/.
---------------------------------------------------------------------------
                         b. competitive issues
    The refining industry is a ``bottleneck,'' or a segment through 
which all inputs must pass to ultimately reach the consumer. 
Bottlenecks are a common feature of most networked industries and often 
involve highly concentrated markets and high sunk and environmental 
compliance costs that discourage new entry. Control of bottleneck 
facilities potentially raises concerns over the exercise of market 
power. For example, in the majority of merger enforcement actions 
involving downstream petroleum markets, the FTC's concern centered on 
the increased likelihood that the merged firm could unilaterally--or in 
coordination with other rivals--withhold capacity to drive up price.
    Much like in electricity markets where firms are differentiated by 
capacity, as opposed to by product, strategic withholding of refining 
capacity could result in anticompetitive increases in RPP prices. It is 
therefore important to consider scenarios involving refiners that 
control large shares of capacity, marginal capacity that sets the 
market price, or facilities located strategically near transportation 
and terminal networks. In highly concentrated markets that are less 
conducive to competitive outcomes, such as PADD 1, the possibility of 
refiners coordinating short-term outages and longer-term idlings or 
closures are also greater.
    It is clear from the analysis above that market shares and 
concentration are directly affected by refinery idlings and closings. 
However, PADD 1 is currently in the grip of two potentially opposing 
forces--high concentration and low capacity utilization rates. The 
likelihood of price increases is generally higher when capacity is 
tight relative to demand, as opposed to at low utilization rates. In 
other words, incentives to exercise market power by withholding output 
can be defeated by the presence of excess capacity in the market, as 
currently exists in PADD 1. Capacity utilization rates in other PADDs 
are currently above 90 percent, whereas in PADD 1, they are at about 68 
percent, down from 93 percent in 2005.\14\
---------------------------------------------------------------------------
    \14\ Energy Information Administration, Refinery Utilization Rates 
React to Economics in 2011 (March 20, 2012), available at http://
www.eia.gov/todayinenergy/detail.cfm?id=5470.
---------------------------------------------------------------------------
    However, one effect of refinery closures in PADD 1 might be to 
increase utilization rates. Indeed, between December 2011 and January 
2012, capacity utilization in PADD 1 jumped from 56 to 72 percent--
about a 30 percent increase.15 It is too early to determine whether the 
uptick signals a longer-term trend. However, it is possible that with 
the closures of Sunoco's Marcus Hook and Conoco-Phillips Trainer 
refineries in late 2011, other refineries have taken up the slack. 
Regardless of the cause, if utilization continues to increase, it will 
be important for policymakers to monitor for price spikes and their 
potential causes, including strategic competitive behavior.
---------------------------------------------------------------------------
    \15\ Energy Information Administration, East Coast Refining 
District Percent Utilization of Refinery Operable Capacity, available 
at http://www.eia.gov/dnav/pet/hist/
LeafHandler.ashx?n=PET&s=MOPUEEC2&f=M.
---------------------------------------------------------------------------
    While the foregoing competitive concerns focus largely on short-run 
output restrictions, it is also possible that long-term, high levels of 
market concentration increase the risk that suppliers can coordinate on 
capacity investment decisions.\16\ Slower investment keeps capacity 
tight and increases the probability that anticompetitive withholding 
will produce significant and sustained price increases. Indeed, capital 
expenditures in refining capacity declined, on average, by 3 percent 
annually over the period 2005 to 2010. While this is likely to reflect 
a reticence by U.S. refiners to expand their presence in markets with 
unfavorable economics, ongoing decreases in investment, particularly in 
concentrated markets, should be monitored.\17\
---------------------------------------------------------------------------
    \16\ For almost 60 years, economists have probed into competitive 
issues in the domestic petroleum industry, include concerns over 
potentially exclusionary conduct in gasoline marketing beginning in the 
1950s, the concept of ``conscious parallelism,'' or that 
anticompetitive coordination does not necessarily take the form of a 
conspiracy, refusals to deal and the potential incentives to foreclose 
rivals associated with integrated refining-marketing, and entry 
barriers at the refining level. See, e.g., for discussion of various 
competitive issues: J. B. Dirlam and A. E. Kahn, Leadership and 
Conflict in the Pricing of Gasoline, 61 YALE L. J. 818 (1952); B. 
Turner, Conscious Parallelism in the Pricing of Gasoline, 32 ROCKY 
MNTN. L. REV. 206 (1959-1960); W. Adams, Vertical Divestiture of the 
Petroleum Majors: An Affirmative Case, 30 VAND. L. REV. 1115 (1977); J. 
W. Markham and A. Hourihan, Horizontal Divestiture in the Petroleum 
Industry, 31 VAND. L. REV. 237 (1978); W. L. Novotny, The Gasoline 
Marketing Structure and Refusals to Deal with Independent Dealers: A 
Sherman Act Approach, 16 ARIZ. L. REV. 465 (1974); and E. V. Rostow and 
A. S. Sachs, Entry into the Oil Refining Business: Vertical Integration 
Re-examined, 61 YALE L. J. 756 (1952).
    \17\ CRS, supra note 8 at 19.
---------------------------------------------------------------------------
          iv. wholesale markets and gasoline prices in padd 1
    National gasoline prices have continued their steady march upward 
since the mid-2000s, marked by periodic exogenous shocks. The 
hurricanes in 2005 caused spikes associated with temporary refinery 
disruptions, as did the phase out of MTBE in the summers of 2006 and 
2007. Likewise, the impact of the global recession beginning in 2008 
caused gasoline prices to plunge as demand fell off. But since the 
beginning of 2009, prices have resumed their upward trend.
    A number of factors can influence gasoline price behavior. For 
example, if upstream (e.g., wholesale RPP) prices continue to increase, 
accompanying downstream (e.g., retail RPP) price increases can be 
reinforced by what economists term ``asymmetry'' or the ``rockets and 
feathers'' effect. This is the tendency for downstream petroleum prices 
to increase faster than upstream prices when upstream prices are on the 
rise, but to fall more slowly when upstream prices are on the 
decline.\18\ There are various theories that could explain asymmetry, 
including oligopolistic coordination, consumer search costs, and 
inventory adjustment costs.\19\
---------------------------------------------------------------------------
    \18\ Asymmetry is observed between a number of upstream-downstream 
price combinations. The most common is wholesale gasoline-retail 
gasoline prices, followed by crude oil-retail gasoline prices.
    \19\ Theories of coordination could include signaling adherence to 
a collusive agreement at the refining or retail levels. For more detail 
see, e.g., Diana L. Moss, The Petroleum Industry, Merger Enforcement, 
and the Federal Trade Commission, 53 THE ANTITRUST BULLETIN 203 (Spring 
2008).
---------------------------------------------------------------------------
    Gasoline prices are also potentially influenced by the effects of 
increased market concentration resulting from the last wave of mergers 
in the late 1990s and early 2000s. When upstream and downstream markets 
are concentrated in vertically integrated industries, competitive 
concerns can arise. For example, vertical integrated firms may possess 
the ability and incentive to foreclose rivals from the market by 
limiting their access to customers or inputs, or raising rivals' costs 
by forcing them to operate at inefficient scale.\20\ Successful 
foreclosure of rival gasoline retailers by vertically integrated 
refiner-marketers could increase prices in retail markets.
---------------------------------------------------------------------------
    \20\ Some economic research appears to support the notion that 
merger involving refiner-marketer combinations activity in the U.S. 
since the mid-1990s increased wholesale and, sometimes, retail prices. 
Moss, supra note 19.
---------------------------------------------------------------------------
    Refining concentration in PADD 1 is already high and, as noted, 
might be driven higher by additional refinery closures. But it is also 
clear that between 2004 and 2010, wholesale concentration increased by 
between about 300 and 700 HHI points in some PADD 1 states--
particularly Pennsylvania where there is a geographic concentration of 
refining capacity--but also Maine and Rhode Island.\21\ Similar to 
refining markets, however, state-level measures of wholesale 
concentration are likely understate market concentration since terminal 
networks are typically defined around smaller, metropolitan areas.\22\
---------------------------------------------------------------------------
    \21\ FTC, supra note 2 at Table 14, at 63.
    \22\ Data from FTC merger investigations shows that terminaling and 
marketing markets are much smaller and more concentrated than state-
based markets.
---------------------------------------------------------------------------
    Higher levels of refining and wholesale market concentration should 
be considered in light of the mitigating fact that refiner integration 
into gasoline marketing has declined since the early 2000s. For 
example, rack sales of gasoline in PADD 1 increased from 68 percent to 
75 percent in 2010, while sales to co-ops and dealer-tank-wagon 
declined from 17 percent to 14 percent.\23\ Indeed, there is evidence 
that integrated petroleum companies and refiners are spinning off 
downstream assets to concentrate on more profitable upstream 
activities. Moreover, large independent gasoline retailers can play a 
role in disciplining retail gasoline prices.
---------------------------------------------------------------------------
    \23\ FTC, supra note 2 at Table 15 (p. 65).
---------------------------------------------------------------------------
    At first blush, these observations might support the notion that 
integrated refiners potentially have less ability to affect gasoline 
prices through vertical foreclosure than in the past. However, this 
must be viewed against the looming prospect of two firms in PADD 1 
accounting for almost 90 percent of refinery capacity. Under those 
circumstances, jobbers and other distributors that purchase at the rack 
and independent gasoline retailers potentially face the prospect of 
dealing with fewer firms, one of which (ConocoPhillips) is vertically 
integrated into wholesale and retail marketing. Much like concentration 
in refining markets, this situation should be carefully monitored.
             v. changing use of the transportation network
    Changes in the pattern of imports into PADD 1 and network usage 
also have competitive implications. Pipeline networks in the U.S. were 
largely designed and constructed to accommodate long-established 
trading patterns between supply and demand centers, within the U.S. and 
abroad. When those patterns change--as they are in light of the 
Northeast refinery closures--new constraints can emerge. For example, 
increased product flows and capacity constraints, reversals of product 
flows, shifting shares of pipeline versus ocean-borne (i.e., tanker and 
barge) transportation, and new pipeline transportation all affect usage 
of downstream networks, with associated effects on costs, prices, and 
disposition of supplies. A good analogy is the changed use of the U.S. 
high voltage transmission grid following regulatory reforms in the mid-
1990s. Expansion of wholesale power markets, accompanied by higher 
volume, longer distance transfers of electricity and new trading 
patterns exposed limitations on the grid. Today, the industry faces 
similar issues, as renewables such as wind generators are located on 
remote parts of the grid.
    PADD 1 is unusual in that it is a net importer of petroleum 
products. In 2010, 72 percent of total product supply in PADD 1 was met 
by ``imports.'' Just over one half of supply came from other PADDs 
(primarily PADD 3) and 20 percent from foreign imports. PADD 1 
therefore supplied only about 21 percent of its own needs in 2011.\24\ 
The economics of this situation are straightforward. Additional 
supplies must be procured from non-PADD 1 sources to make up for 
refining capacity shortfalls, particularly for ULSD and gasoline. Those 
supplies can come from a variety of sources--PADD 3, PADD 2, Canada, 
and foreign sources.\25\
---------------------------------------------------------------------------
    \24\ FTC, supra note 2, Table 11 (p. 60).
    \25\ Energy Information Administration, Potential Impacts of 
Reductions in Refinery Activity on Northeast Petroleum Product Markets, 
(February 27, 2012), available at http://www.eia.gov/analysis/
petroleum/nerefining/update/.
---------------------------------------------------------------------------
    Regardless of how shortfalls resulting from refinery closures are 
met, RPP prices in PADD 1 will likely increase relative to other PADDs, 
for a number reasons. First, scarce supplies must be bid away from 
other, more lucrative markets, potentially raising prices.\26\ Second, 
capacity constraints on the Colonial pipeline that moves product from 
the Gulf Coast and up the eastern seaboard will potentially drive up 
transportation costs and therefore prices. Constraints on existing 
terminal and storage capacity and configurations might likewise 
adversely affect prices. Third, the costs of altering or building new 
infrastructure to accommodate the PADD 1 refining situation (should it 
become permanent) are potentially high and could increase prices.
---------------------------------------------------------------------------
    \26\ Supplies that come from abroad should, in any robust economic 
analysis, account for the indirect costs associated with dependency on 
foreign fuel sources.
---------------------------------------------------------------------------
    Finally, if products are imported to PADD 1 from atypical or more 
remote sources, supply chains will probably become longer and more 
complex, potentially driving up costs and prices.\27\ Under these 
circumstances, supply chains become more ``fragile'' and prone to 
disruption from events such as input market shocks, weather, or 
political events. This fragility could be exacerbated by the presence 
of concentrated markets at critical, constrained junctures in the 
supply chain. Such circumstances can create incentives for firms to 
exercise market power through unilateral or coordinated conduct, and 
are therefore important to monitor.
---------------------------------------------------------------------------
    \27\ EIA, supra note 25, at 23.
---------------------------------------------------------------------------
                             vi. conclusion
    It is as yet unclear how refinery closures in the Northeast will 
affect RPP prices, particularly gasoline. Should prices rise, proposals 
for addressing them will highlight the tension between competition 
policy and broader-based public policy. Competition policy views 
domestic petroleum refining and marketing much like any other commodity 
market, using methodologies and economic tools to evaluate whether 
mergers or strategic firm conduct are likely to harm competition and/or 
consumers. Public policy, on the other hand, is apt to treat high 
gasoline prices as a societal problem. In addition to traditional 
consumer welfare and economic efficiency concerns, public policy would 
potentially consider equity, economic growth, and national security as 
key factors in crafting approaches.
    Given these concerns, public policy could view petroleum markets as 
candidates for special rules or treatment that would not be considered 
in the realm of competition policy. It is thus important that 
approaches separate the underlying market dynamics (e.g., scarcity) 
associated with refinery closures in the Northeast from outcomes that 
are related to strategic competitive behavior. If the latter appears to 
be a factor in the evolving Northeast refinery situation, then it would 
be prudent for policymakers, including antitrust enforcers, to consider 
several important questions.
    One question is whether past mergers have had an effect in creating 
the market structures and incentives that facilitate anticompetitive 
outcomes. In making budgetary decisions, Congress might also consider 
that the FTC will need resources to monitor for and investigate 
potential competitive concerns. Finally, antitrust may not be able to 
address some competitive issues. Much like the California electricity 
crisis of the early 2000s when generators engaged in unilateral 
withholding strategies to drive up wholesale electricity prices, 
withholding of refinery output or restraining growth in capacity 
likewise does not constitute a violation of U.S. antitrust laws.\28\ In 
such circumstances, public policy would play a larger role in ensure 
that competition and consumers are not harmed.
---------------------------------------------------------------------------
    \28\ Withholding output or capacity as part of a collusive strategy 
would be reachable under Section 1 of the Sherman Act. Likewise, 
exclusionary conduct by a single firm could be a violation of Section 2 
of the Sherman Act. If a withholding strategy was likely in a post-
merger context, it could be a cognizable anticompetitive effect under 
Section 7 of the Clayton Act.
---------------------------------------------------------------------------
                               __________
  Prepared Statement of Robert Greco, The American Petroleum Institute
    Good afternoon. My name is Bob Greco and I am Group Director of 
Downstream and Industry Operations for the American Petroleum Institute 
(API). Thank you for the opportunity to speak at this hearing today.
    API represents all aspects of America's oil and natural gas 
industry. The industry supports 7.7 percent of our economy, 9.2 million 
jobs, and millions of Americans who hold ownership stakes through 
pension funds, retirement accounts, and investments.
    Refineries are critically important to our nation. They make the 
fuels that virtually all Americans use and that help drive our economy. 
They contribute to our energy and national security. And they provide 
jobs for tens of thousands of Americans and substantial revenue to 
local, state, and federal governments.
    The recent refinery closures in the Northeastern U.S. are a matter 
of great concern. They have the potential to impact families, 
communities, and other manufacturing industries, and to reduce tax 
revenues. We very much regret that.
    It's also important, however, to understand the reasons why 
refining is such a challenging business and why closures sometimes 
occur--and to also know that the refining industry is resilient and 
will continue to supply the products that all Americans need.
    Refining is highly competitive. It has also traditionally been a 
low-profit margin industry faced with a heavy slate of regulations over 
the decades involving many billions of dollars in environmental 
investment and compliance costs. Because of these and other factors, 
some refineries--often after sustained periods of financial losses--
have had to shut down. About 75 U.S. refineries have closed since 1985.
    As this has happened, however, the remaining larger, more efficient 
facilities have expanded capacity so that total U.S. refining capacity 
has actually increased by 13 percent. This has allowed the sector to 
continue to reliably provide Americans with the fuels they need.
    The ability of our industry to add capacity and to produce and 
deliver larger amounts of gasoline and other products over a flexible 
distribution network--and also to draw on imported products when 
necessary--will help us continue to supply markets here.
    The higher prices we see now also have been a challenge to our 
refineries. Rising global demand and Middle East tensions have pushed 
the cost of crude oil higher. The cost of crude oil is the single 
biggest factor in the price of gasoline--accounting for about three-
fourths of the pump price excluding gasoline taxes--and is the largest 
cost incurred by refineries.
    Refiners have struggled to pay higher crude prices to make products 
for American markets at a time when U.S. demand has been relatively 
weak because of (1) the recession and its aftermath, and (2) the 
federal ethanol blending mandates. This has severely pushed down 
margins and has negatively affected the refining sector.
    Refining is a difficult business. But we can make better energy 
policy choices that can help the industry remain a reliable, stable 
supplier of affordably priced fuels and keep its workers employed.
    Good policy choices mean sensible regulations, fair tax policies, 
and sufficient access to the crude oil from which all refined products 
are made. Decisions made in Washington, D.C., are a big part of this 
equation, but so are those made by local and state governments, such as 
state requirements for ultra-low sulfur home heating oil.
    Excessive rules can raise costs and make it harder for our 
refineries to compete and stay in business. Policies--such as those 
embraced by the current administration over the past three years--that 
limit crude oil production in the United States or prevent ready 
supplies from being imported from Canada put upward pressure on crude 
oil prices that eventually affect refineries and those who consume the 
gasoline, diesel fuel, and other products they make.
    That's why we have been calling on the Administration for a change 
of course.
    We've urged them to expand access to America's vast oil and natural 
gas resources on public lands that could also add supplies to markets 
and put downward pressure on prices.
    We've urged them to approve the Keystone XL pipeline, which could 
deliver from Canada very large additional supplies of crude oil to U.S. 
refineries that serve U.S. consumers.
    We've called for more sensible, cost-effective regulations that 
show a practical regard for potential impacts on industry facilities 
and to the people who work there or who depend on the products they 
make.
    We've asked the EPA in particular to reconsider a virtual blizzard 
of new poorly thought-out, unnecessary, and even counterproductive 
rules that could threaten our refining sector. For example, refiners 
are facing an impending ``blend wall'' where the mandates to blend 
ethanol into gasoline will soon exceed our ability to safely use these 
fuels in existing vehicles. Moreover, refiners are also required to 
blend into the gasoline supply advanced biofuels that do not yet exist, 
or pay a fee when they cannot meet the mandates. This policy is 
regulatory absurdity, and effectively amounts to a hidden tax on 
gasoline manufacturers.
    Another example is the so-called Tier 3 rules for further sulfur 
reduction in gasoline. EPA has yet to demonstrate any air quality 
benefits from reducing sulfur by the amount being considered, and an 
analysis by the respected energy consulting firm Baker & O'Brien shows 
that implementing the new requirements could increase refinery 
greenhouse gas emissions because of the use of energy-intensive hydro 
treating equipment to remove sulfur from the gasoline.
    The Baker & O'Brien study also found that U.S. refiners could face 
$10-17 billion of up-front capital costs and $5-13 billion of recurring 
annual operating expenses under several Tier 3 scenarios. That could 
translate to increases between 6 cents and 9 cents per gallon in the 
cost of manufacturing gasoline. If a vapor pressure reduction 
requirement is included, the cost increase could be as much as 25 cents 
per gallon, and four to seven U.S. refineries might close because their 
owners could not make the required investments to meet the new 
requirements. While the sulfur reduction requirement alone, with an 
upfront cost of nearly $10 billion and an annual operating cost of $2.4 
billion, probably would not lead to refinery closures, these 
additional, unjustified costs would only further weaken the 
competitiveness of domestic refiners.
    Of course, diminished domestic fuel manufacturing capacity would 
lead to increased reliance on imported petroleum products from foreign 
refineries that may be operating under substantially less stringent 
environmental standards than exist in the United States--all for what 
would be at best modest incremental environmental benefits here at 
home.
    Decisions made in Washington, D.C., can have a big impact on 
refiners and the fuel market, but so can those made by state and local 
governments. For example, the current New York state requirement for 
ultra-low sulfur home heating oil is unjustified and may impact the 
reliable supply of home heating oil this winter. Fortunately the state 
legislature is reconsidering this draconian reduction, and we urge New 
York to do so quickly before the requirements go into effect this 
summer.
    U.S. refineries are under pressure for a combination of reasons, 
and increased regulatory costs are certainly a factor. The discourse on 
environmental protection in this country should not be cast as being 
either for it or against it, which is really a straw man debate, but 
instead should focus on making regulation more efficient so it 
materially benefits the environment without impeding economic growth 
unnecessarily, and avoids hindering other environmental improvements 
inadvertently.
    Existing refinery regulations and fuel requirements clearly 
contribute to a cleaner environment and safer workplace, but, 
unnecessary, inefficient, and excessively costly requirements hamper 
our ability to provide and distribute fuels to America, while also 
employing hundreds of thousands of people and enhancing our national 
security. We have already seen some refineries close, at least in part 
due to the cumulative impact of environmental controls.
    The U.S. oil and natural gas industry has invested over $209 
billion since 1990 toward improving the environmental performance of 
its products, facilities and operations. In the year 2009 alone, $12.4 
billion was spent implementing new technologies, creating cleaner 
fuels, and funding ongoing environmental initiatives. 52% of the 
industry's environmental expenditures in 2009 targeted air pollution 
abatement, meeting or surpassing the requirements of the 1990 Clean Air 
Act.
    In light of the environmental progress the nation has experienced, 
we therefore urge the Administration to take a step back on Tier 3 and 
its other proposed rules. We must be sure that new regulatory proposals 
are necessary, properly crafted, practical, and fair, to allow U.S. 
refiners to remain competitive, preserve good paying refinery jobs, and 
ensure our energy security.
    America's refineries are a critical part of the nation's industrial 
bedrock and a part of the fabric of the communities in which they 
operate. They make products that are absolutely indispensable to 
America. They are vital to our national security.
    Our policy makers must understand this for this vital sector of our 
economy to continue serving America the best it can.
    Thank you.
                               __________
     Prepared Statement of Thomas D. O'Malley, Chairman, PBF Energy
    Chairman Casey, Vice Chairman Brady and Members of the Committee, 
thank you for giving me the opportunity to testify at today's hearing 
on some of the factors that led to refinery closures in the Northeast. 
I'm Tom O'Malley and I serve as chairman of PBF Energy.
    PBF Energy owns three refineries with a total capacity of 540 MBD. 
Two of the refineries are located in the Northeast, one in Delaware 
City, Delaware and the other in Paulsboro, New Jersey. Both of these 
refineries were acquired from Valero in 2010, one in a closed down 
condition and the other in danger of being closed. Both refineries are 
in operation today supplying fuel to the East Coast. Our third refinery 
is in Toledo, Ohio and has operated on a continuous basis since 
acquisition in March of 2011. We employ at the three refineries, 
directly and with contractors, about 2,000 people.
    The recent refinery closures that have occurred or are currently 
pending are the tip of an iceberg. If the fuel substitutions from 2012 
to 2022 mandated under the Energy Independence Act of 2007 are 
maintained, we will lose over that time period an additional 10% 
minimum of U.S. capacity and the thousands of jobs that this important 
industry provides.
    The 1,400,000 BBLs per day of renewable fuels over and above the 
2011 mandate which includes 10% Ethanol in gasoline will, we believe, 
be more expensive than the product coming from refineries. When you 
combine this with what can only be described as an aberrant 
administration of the 2007 Act, particularly on RINs (Renewable 
Identification Numbers), by the EPA, it's easy to come to the 
conclusion that the government will drive refining companies out of 
business. This extra fuel substitution has no basis in economic reality 
and is marginal in terms of environmental improvement. The Act of 2007 
may have seemed good policy in 2007. It is not today. If bio/renewable 
fuels manufacturers can produce on a superior economic basis to 
hydrocarbon fuels, they should do so and take market share the old 
fashioned way, better quality and better price without government 
mandates or subsidies.
    We are on a road that may in fact get us close to independence on 
the Energy front. But, it will come from more production of 
hydrocarbons and not from taking corn out of the food chain and turning 
it into Ethanol or from some dream process that doesn't exist on an 
economic basis to make advanced bio-fuel at great cost to the consumer.
    The other government action that will close more refineries and 
raise the price of fuels is the EPA Plan for Tier 3 Gasoline. The 
industry will have to spend billions of dollars to comply; money which 
the independents, who now control 60% of our capacity, don't have. Why? 
To lower sulfur content from 30 parts per million to ten parts per 
million. Under this Tier 3 Plan, the total sulfur removed from the PBF 
gasoline production of about 4.5 billion gallons would be less than 1/8 
of what one 500 MW coal-fired power plant emits in a year. You have 
plants of this size not farfrom here.
    Is this good policy in a weak economy, where it helps kill one of 
our last heavy industries that provides high paying jobs and meets the 
needs of our population?
    This hearing is focused on the impact of potential closures of 
petroleum refineries serving the Northeast and the effect on prices. 
This is not just an issue for the Northeast, but for the entire nation.
    In the short, medium and long term, it is my view that these 
closures will lead to higher prices. In certain circumstances, we could 
see dangerous shortages develop which could lead to severe economic 
disruption.
    Current Government policy will drive refineries in other areas of 
the country out of business and this will further complicate the East 
coast situation.
    We need to see an adjusted government policy that seeks to maintain 
this important strategic manufacturing industry and not a series of 
policies and laws that destroy it.
    Removing the 2007 law's renewal fuel mandate eliminating the 
mandate for 10% ethanol in gasoline and holding the EPA back from an 
aggressive stance on Tier 3 fuel specifications would, in my view, lead 
to a healthy Delaware Valley refining industry and jobs for the workers 
in lhis valuable industry.
    This situation is not the fault of either the Democrats or the 
Republicans. But, it can only be solved by a Congress that works 
together in the interest of all the American people.
    Thank you for inviting me and the courtesy of listening to my 
views.
                               __________
Prepared Statement of Michael Greenstone, 3M Professor of Environmental 
    Economics, Massachusetts Institute of Technology; Director, The 
     Hamilton Project; and Senior Fellow, The Brookings Institution
    Thank you Chairman Casey, Vice Chairman Brady, and members of the 
Committee for inviting me here today.
    My name is Michael Greenstone, and I am the Director of The 
Hamilton Project, the 3M Professor of Environmental Economics at the 
Massachusetts Institute of Technology, and a Senior Fellow at the 
Brookings Institution. I am honored to have the opportunity to speak 
with you today about America's energy choices, as prompted by the 
repercussions of potential refinery closures on the East Coast.
                            i. introduction
    Thanks in part to an economic infrastructure heavily dependent on 
energy use--roads and highways, ports and railways, broadband and 
computer networks, manufacturing plants and shipping facilities--
American workers and businesses are among the most productive in the 
world and the most globally integrated. One innovation after another 
over the centuries, fueled by cheap and plentiful energy from coal, 
oil, and natural gas, has allowed the nation's economy to transition 
from one based on agriculture to one based on high-value-added 
manufacturing and services aided by computerization. Our standard of 
living--among the highest on earth--would simply not be possible 
without energy and the systems that have been developed to harness it.
    The potential closures of petroleum refineries on the East Coast 
have led to speculation that energy prices may rise, possibly 
dramatically in some instances. This hearing provides an important 
opportunity to consider our energy choices more broadly. Specifically, 
it provides a moment to remember that our energy sources often come 
bundled with costs that go beyond what we pay at the pump or in our 
electricity bills and that sound choices involve recognizing all costs.
                     ii. the natural gas revolution
    The discovery of vast amounts of natural gas shale resources in the 
United States and the advancement of drilling technologies that allow 
us to develop these resources have dramatically changed our country's 
energy situation. Over the course of the last decade, U.S. natural gas 
prices have plummeted while petroleum prices have increased 
significantly. As you can see from the figure below, on an equal energy 
content basis, the price of oil traded at roughly twice the price of 
natural gas for roughly twenty-five years. Their prices were roughly 
linked because of the opportunities for substitution of one for the 
other. This dramatically changed in 2005 when our natural gas 
production began to increase, and petroleum now trades at over 6 times 
the price of natural gas at the beginning of 2012.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    The practically unprecedented change in the ratio of oil to natural 
gas prices presents an incredible opportunity for the United States. It 
is creating economic opportunities around the country during what 
remain tough economic times, reducing the price of energy for many 
Americans, changing the mix of electricity sources on the grid in a way 
that reduces carbon emissions, and over the longer term offers an 
opportunity to strengthen our energy security. Reducing our dependence 
on petroleum-based energy sources in favor of natural gas could have 
many benefits--including the development of a more diverse set of 
options that does not constrain our foreign policy choices and provides 
great protection against oil price shocks in the future.\1\ The first 
signs of a transition to increased reliance on natural gas in the 
transportation sector are beginning to emerge, but this transition will 
not proceed optimally or quickly unless we make proactive policy 
choices.
---------------------------------------------------------------------------
    \1\ Gail Cohen, Frederick Joutz, and Prakash Loungani, 2011, 
``Measuring energy security: Trends in the diversification of oil and 
natural gas supplies,'' Energy Policy 39 (2011) 4860-4869, Elsevier.
---------------------------------------------------------------------------
                    iii. the social costs of energy
    One of the challenging features of our energy system is that many 
of our energy choices involve what economists call ``externalities.'' 
That is to say, the choices that individuals make about the production 
or consumption of a particular energy source impose costs on others in 
the form of shorter lives, higher health care expenses, a changing 
climate, and weakened national security. The current energy playing 
field is tilted because our individual energy choices are based solely 
on the visible costs that appear on electric bills and at the gas pump. 
This system masks the full or social costs arising from those energy 
choices.
    The social cost of energy includes the price we pay at the gas 
pump--known as the ``private costs''--plus the less obvious impact of 
energy use on health, the environment, and national security. 
Economists refer to these additional damages as negative externalities, 
or ``external costs.''
    The dramatic differences in the private and social costs of 
different energy sources--seen in the figure below, which adds on the 
external costs associated with each electricity source--illustrate how 
the low-private-cost energy sources on which we rely often come with 
high external costs.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    For example before accounting for external costs, a coal plant is a 
competitively priced way to produce electricity. But the costs of coal 
increase dramatically when the full costs of production are included. 
Specifically, the social cost per kilowatt hour of energy for existing 
coal plants is more than double the private cost--8.8 cents compared to 
3.2 cents. In contrast, the private cost of a kwh of electricity from a 
new natural gas plant is 4.1 cents and the full or social cost is 5.2 
cents. These calculations are from a recent Hamilton Project paper and 
are based on the National Academy of Science's estimates of the non-
carbon (primarily health) costs from producing a kwh of the various 
energy sources and the United States Government's estimates of the 
damages from climate change due to the release of greenhouse gases.\2\
---------------------------------------------------------------------------
    \2\ Michael Greenstone and Adam Looney, ``A Strategy for America's 
Energy Future: Illuminating Energy's Full Costs,'' The Hamilton Project 
strategy paper, Brookings Institution, May 2011, http://
www.hamiltonproject.org/\1/2\les/downloads_and_links/
05_energy_greenstone_looney.pdf; Michael Greenstone and Adam Looney, 
``Paying Too Much for Energy? The True Costs of Our Energy Choices,'' 
Daedalus, Spring 2012, Vol. 141, No. 2: 10-30; National Academy of 
Sciences (NAS). 2010. Hidden Costs of Energy. National Academies Press. 
Washington, DC. 154; Interagency Working Group on Social Cost of 
Carbon, United States Government. 2010 (February). ``Technical Support 
Document: Social Cost of Carbon for Regulatory Impact Analysis Under 
Executive Order 12866.'' http://www.epa.gov/oms/climate/regulations/
scc-tsd.pdf
---------------------------------------------------------------------------
    Once the social costs of all energy sources are accounted for, 
natural gas power plants stand out as the least expensive electricity 
source today. This outcome reflects the low prices of natural gas due 
to the recent dramatic increase in reserves and the fact that the 
health and environmental costs associated with natural gas are lower 
than for other fossil fuels.\3\
---------------------------------------------------------------------------
    \3\ It is critical to underscore that there are important 
unresolved questions about the external costs of natural gas drilling, 
including its effect on water and air quality and the degree of 
fugitive greenhouse gas releases. There are also unquantified external 
costs from nuclear and other energy sources. The numbers in this 
testimony and the figure should naturally be updated as new information 
emerges.
---------------------------------------------------------------------------
    Despite the relatively low social costs of natural gas, industry 
and consumers have little incentive to change their energy choices 
based on comparing social costs. This is because coal and gasoline are 
comparatively inexpensive when only their private costs are 
considered--their costs to health, the climate, and national security 
are obscured or indirect, and so consumers behave as if they were less 
costly than they truly are.
    Current energy policy tilts the balance in favor of energy sources 
that only appear cheap because their prices do not account for their 
full costs, although society nevertheless bears the external costs. A 
better approach to energy policy would involve a fairer competition 
between energy sources that placed them on a level playing field. The 
best approach is to price carbon and other pollutants appropriately. 
But in the absence of a national policy to price these external costs, 
there are still other policy options available. The Hamilton Project is 
exploring some of these policy options in research to be released this 
June.
                      iv. an uneven playing field
    Increasing our natural gas consumption--or altering our energy 
consumption in any manner--is easier said than done, since different 
forms of energy are not necessarily competing with one another on an 
even playing field. For example, several barriers prevent us from fully 
utilizing natural gas in the transportation sector, as an upcoming 
Hamilton Project paper by Chris Knittel will discuss.
    Some existing U.S. policies aim to correct externalities in energy 
use in the transportation sector, but they do not treat natural gas 
fairly. For example, the Federal Renewable Fuel Standard as outlined in 
the Energy Independence and Security Act of 2007 ensures that 
transportation fuels sold in the U.S. contain certain volumes of 
renewable fuels, but does nothing to encourage the use of natural gas. 
Of course, natural gas is not a renewable fuel, but the stated 
rationale behind the Act is to promote energy independence and 
security, and to favor clean fuel sources. Use of natural gas would 
clearly advance the mission of the Act. Until natural gas is included 
in the Renewable Fuel Standard as a Conventional Biofuel, it will be at 
a disadvantage to fuels such as ethanol.
    Electric vehicles provide another example of natural gas's 
comparative disadvantage. Electric vehicles receive much larger 
subsidies through income tax credits than do vehicles that run on 
compressed natural gas. These two forms of vehicles produce comparable 
amounts of greenhouse gas emissions, and fairness would dictate that 
both should receive equal subsidies.
    There are also issues in infrastructure which require further 
analysis. Decades of reliance on gasoline as our main fuel for 
transportation have led to the build-out of petroleum-focused 
infrastructure. For example, 120,000 gas stations exist in the United 
States for vehicle refueling, while there are fewer than 400 public 
refueling stations for natural gas. As a result, natural gas vehicles 
are prohibitively impractical for most consumers. We find ourselves in 
a situation in which the status quo is inherently favored, even if our 
energy needs in the short-run may be better served by natural gas and 
in the long-run by innovation. Without prejudging the outcome, it would 
be appropriate to study whether some targeted subsidies for the 
construction of natural gas refueling stations are justified.
                             v. conclusions
    I will conclude by bringing this back to the subject of today's 
hearing. Periodically, the energy sector shows up in the headlines--
most often this is due to price spikes, like those that some project 
would follow the potential closure of petroleum refineries in the 
Northeast or due to environmental damages associated with energy 
production or consumption. Our current energy policies encourage these 
problems, rather than discourage them, by failing to allow all energy 
sources to compete on a level playing field.
    I respectfully make the following recommendations that aim to 
correct this core problem with our energy system:

    <bullet>  First, the federal government should price the external 
costs, that is the health, environmental, and security costs, 
associated with the production and consumption of energy. This reform 
would allow all energy sources to compete on a level playing field.
    <bullet>  Second if it is infeasible to fully price these external 
costs, then a forthcoming Hamilton Project paper makes a compelling 
case for putting natural gas on equal footing with renewable fuels 
under the Federal Renewable Fuel Standard and by providing equal 
subsidies to electric vehicles and vehicles that run on compressed 
natural gas.

    I would like to thank the entire committee once again for inviting 
me to participate in this discussion. I will gladly respond to any 
questions.
                               __________
         Prepared Statement of Congresswoman Donna Christensen
    Good afternoon Chairman Casey and Members of the Joint Committee:
    Thank you for the opportunity to submit remarks to be included in 
the official record of this very important hearing. As we all are 
acutely aware every time we stop at a gas station, or receive our 
electric bills in the mail, the ongoing energy crisis has been and will 
be regarded as one of the most defining issues of our time.
    With the domino like closing and idling of refineries that supply 
fuel to the Northeast happening far too frequently, it is very fitting 
that we come together to discuss gas prices in the region and the 
resulting potential impact on the American consumer due to the loss of 
refining capacity.
    Being the Congressional Representative of the U.S. Virgin Islands, 
which served as home to what was the western hemisphere's third largest 
oil refinery--it is imperative that I lend my voice, and the voice of 
my constituents to the discussion being had today. They are also 
represented in the audience today by, Ira Hobson and Oswin Newton, two 
members of the Steelworkers who are among the recently laid-off 
workers.
    Prior to its shut down of operations in February of 2012, the 
HOVENSA oil refinery exported more than half of its output to the East 
Coast and produced approximately 350,000 barrels per day of refined 
product. At its height, HOVENSA produced more than 500,000 barrels per 
day with \2/3\ of it going to the east coast, which included jet fuel 
and other refined products.
    Before it closed its doors, it had begun to export to other 
markets, cutting its exports to the Northeast to 55% percent. Though 
the impact of HOVENSA's closing is only beginning to be seen, we can be 
assured that American consumers from New Jersey to St. Croix, St. 
Thomas or St. John will have an adverse lasting impact for years to 
come.
    It has been suggested that environmental and health protections are 
to blame for recent refinery closures in the United States and its 
territories. Speaker John Boehner also has repeated claims that [quote] 
``extremely challenging regulations'' for U.S. refineries are causing 
gasoline prices to rise.
    The truth is that the recent refinery closures were not driven by 
environmental protections. And they certainly were not caused by 
regulations that haven't even been proposed. The truth is that recent 
decisions to close or sell refineries along the East Coast are based on 
market factors such as oil prices, consumer demand, and competition.
    When it announced the refinery closure, the company stated very 
clearly that the closure was due to $1.3 billion in economic losses 
[quote] ``caused primarily by weakness in demand for refined petroleum 
products due to the global economic slowdown and the addition of new 
refining capacity in emerging markets.''
    The company also noted that as an oil-fired refiner, it was at a 
competitive disadvantage with other mainland refiners that use cheap 
natural gas to power their facilities.
    The company's CEO testified before the 29th Legislature of the 
Virgin Islands and reiterated that poor market conditions, including a 
drop in demand for the refinery's petroleum products, had put it on a 
path to bankruptcy. He also dismissed suggestions that an EPA order to 
install modern pollution controls was a factor in the company's 
decision to close the refinery.
    The Pennsylvania refineries also have faced challenging market 
conditions. They process the most expensive type of crude oil. Demand 
for their products has fallen, and excess capacity has squeezed their 
profit margins.
    Elsewhere in the United States, refineries are thriving. In 2011, 
U.S. refining capacity reached 17.7 million barrels per day, the 
highest level in at least 25 years. In particular, Gulf Coast 
refineries have been able to process cheaper sources of crude compared 
to the rest of the country and maximize production. As a result, 
several refineries in the Gulf Coast are actually expanding their 
capacity.
    Given that the U.S. Virgin Islands being such a small community, 
the impact of HOVENSA's recent closing has already begun to reverberate 
throughout the entire community--and regionally as well. With over 
2,000 jobs lost due to the shut down, businesses that rely on HOVENSA, 
their suppliers, hotels and restaurants and even some of our private 
schools are wondering how they are going to keep their doors open. This 
coupled with the ongoing recession, couldn't have come at a worse time 
with the local government having had to cut salaries, announce layoffs 
and deal with the impact of cutbacks in federal spending.
    In addition to that other concerns remain. Our neighbors in Puerto 
Rico remain concerned about where they will be able to secure jet fuel 
that was once originally supplied by HOVENSA. While we have worked it 
out to some degree, at one point, there was a threat that a local 
business was in jeopardy of losing a contract with the Department of 
Defense due to uncertainty regarding the ability for Hurricane Hunters 
and other DOD assets to be able to refuel on St. Croix. Those two 
examples alone reflect the anxiety and concern regarding who will be 
supplying the Virgin Islands in place of HOVENSA and at what price, but 
of course it extends to our gas stations and the consumers.
    With 25% of our population below the national poverty level, and 
our cost of living 17% higher than the national average and with energy 
cost rates 4 times the national average, the price of fuel in the 
future dominates conversations every single day in my district. HOVENSA 
has recently agreed to continue to supply fuel until the end of the 
calendar year (they were originally going to stop supplying at the end 
of June 2012), but before that time the Virgin Islands Water and Power 
Authority (VIWAPA) will again have to tender to buy more than 2 million 
barrels of petroleum for its power generating facilities. The response 
to their recent request for proposals to supply was poor, but before 
the end of the year a supplier will have to be in place.
    The majority of the community remains doubtful that there stands a 
chance that our already burdensome cost of energy per kilowatt hour at 
.43 for residential and .45 for commercial has a chance of being 
reduced, once transportations costs of getting the fuel to the Virgin 
Islands is factored into the price that consumers pay.
    And so while the focus of this hearing is on the impact of the 
closures on the Northeast, it is important to bring to the joint 
committee's attention and concern that in addition to the direct 
economic impact of the loss of jobs, scholarships for the children of 
their managerial employees, and the purchasing of supplies from the 
local companies, as well as the loss of value to those and other 
businesses, the closure of HOVENSA not only affects consumer prices for 
gasoline and other petroleum products in the Northeastern states, but 
has a severe impact in the U.S. Virgin Islands as well.
    The Committee is also considering natural gas as an alternative 
fuel. It is clear to me that not having it available was a major factor 
in HOVENSA's closing, but our utility (VIWAPA) is also compelled to 
find a way to replace diesel with natural gas to lower the costs to 
consumers and to burn a clean fuel. Barriers include transportation and 
storage of LNG and our small economy of scale.
    As the Committee and the Congress go on to determine what the 
response will be, and what remedies will be applied please ensure that 
they will include the entire area of impact which includes the U.S. 
Virgin Islands.
                               __________


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               
Prepared Statement of the Honorable John P. de Jongh, Jr., Governor of 
                        the U.S. Virgin Islands
    Chairman Casey and distinguished Members of the Joint Economic 
Committee, thank you for the opportunity to participate in this 
important hearing and to provide the views of the Government of the 
U.S. Virgin Islands on the macro economic impact of recent refinery 
closures on the Northeast. As you know, the U.S. Virgin Islands has 
been adapting to the sudden closure of one of the largest refineries in 
the Atlantic Basin, and it is encouraging to the people of the U.S. 
Virgin Islands to know that this Committee is concerned with the 
broader economic implications of the loss of refining capacity in the 
region.
    HOVENSA, which is a joint venture between Hess Corporation and 
Petroleos de Venezuela, is one of the 10 largest refineries in the 
world, located on the island of St. Croix in the U.S. Virgin Islands 
(``USVI''). On January 18, 2012, after more than 45 years of 
operations, HOVENSA announced plans to shut down the St. Croix refinery 
by mid-February. By February 16, 2012, HOVENSA had ceased refining 
operations and completed closure of the refinery. Discussions between 
HOVENSA and the USVI concerning future plans for the refinery are 
ongoing.
    Prior to closure, HOVENSA had a refining capacity of over 500,000 
barrels per day (bbl/d) and it produced 350,000 bbl/d in 2011. HOVENSA 
provided refined oil to meet the needs of the USVI and was an important 
source of gasoline, home heating oil and other distillate fuels for the 
eastern part of the United States. HOVENSA was also a major supplier of 
jet fuel to the United States military.
    HOVENSA has traditionally sent most of its product to the East 
Coast and has for many years ``play[ed] a significant role in supplying 
the Northeast.''\1\ In 2007, the East Coast imported 307,000 bbl/d from 
HOVENSA, which was two-thirds of the refinery's output that year. While 
total imports had declined somewhat by 2011, when the East Coast 
imported 158,000 bbl/d from HOVENSA, imports of gasoline and distillate 
were steady and HOVENSA continued to be an important supplier of 
gasoline and distillate to the East Coast. In 2011 (through November), 
HOVENSA accounted for almost thirty percent of total East Coast 
distillate imports (which includes ultra-low sulfur diesel or ULSD) and 
thirteen percent of the gasoline imports.\2\
---------------------------------------------------------------------------
    \1\ Potential Impacts of Reductions in Refinery Activity on 
Northeast Petroleum Product Markets, U.S. Energy Information 
Administration, at 8 (Feb. 2012).
    \2\ The HOVENSA refinery closure removes an important source of 
East Coast Gasoline and distillate supply, U.S. Energy Information 
Administration, at 1 (Feb. 23, 2012).
---------------------------------------------------------------------------
    While retail gasoline prices are often linked to rises in crude oil 
prices, refinery closures are further impacting gas prices.\3\ Indeed, 
``[w]hen supply is tight with product inventories diminishing relative 
to normal levels, product prices can rise, sometimes sharply.''\4\ 
There is little doubt that HOVENSA's closure has resulted in an 
increase in gas prices on the East Coast, as well as in the Virgin 
Islands. Immediately following HOVENSA's January 18, 2012 announcement, 
gasoline futures rose 2 percent on the New York Mercantile Exchange.\5\
---------------------------------------------------------------------------
    \3\ Rising Gasoline Prices 2012, Congressional Research Service 
(March 1, 2012); Short-Term Energy and Summer Fuels Outlook, U.S. 
Energy Information Administration (Apr. 10, 2012).
    \4\ Potential Impacts of Reductions in Refinery Activity on 
Northeast Petroleum Product Markets, U.S. Energy Information 
Administration, at 21 (Feb. 2012).
    \5\ Refinery Closing Threatens Virgin Islands' Debt, Employment, 
Bloomberg (Feb. 9, 2012).
---------------------------------------------------------------------------
    As was noted in a recent study by the U.S. Energy Information 
Administration, ``[r]efinery closures in the U.S. Virgin Islands and 
the Philadelphia area are likely to affect product distribution 
arrangements along the entire East Coast. With the HOVENSA shutdown, 
both the Lower Atlantic and New York Harbor lose a major source of 
supply.''\6\ As a result, there are additional supply needs throughout 
the Northeast. But the lost volumes not only disrupt the supply chain, 
they also create logistical problems as those volumes need to be 
replenished from alternate sources, which face problems bringing supply 
to the East Coast. Specifically, there is difficulty in moving product 
from the Gulf Coast to the Northeast because the pipeline that delivers 
product is at or near capacity and shipments from the Gulf Coast to the 
Northeast are subject to the Jones Act. By contrast, shipments to U.S. 
ports from the USVI are exempt from Jones Act requirements and thus 
such obstacles have not been a concern for imports from the USVI.
---------------------------------------------------------------------------
    \6\ Potential Impacts of Reductions in Refinery Activity on 
Northeast Petroleum Product Markets, U.S. Energy Information 
Administration, at 24 (Feb. 2012).
---------------------------------------------------------------------------
    The U.S. Energy Information Administration predicts that as a 
result of the combined closures of HOVENSA and the Philadelphia 
refineries, ``[t]he industry may face significant logistical challenges 
in the Northeast for a year or more, as infrastructure changes will be 
necessary to accommodate replacement product flows.''\7\
---------------------------------------------------------------------------
    \7\ Id. at 3.
---------------------------------------------------------------------------
    It should come as no surprise, then, that the East Coast has been 
particularly affected by rising gas prices experienced throughout the 
United States. ``The U.S. average retail price of regular gasoline 
increased almost 7 cents to $3.59 per gallon as of February 20, 2012, 
about 40 cents per gallon higher than last year at this time. Prices 
were up across all regions . . .. The East Coast price rose 4.2 cents 
to $3.65 per gallon, and had the largest increase compared to a year 
ago, at 48 cents.''
    Furthermore, it is not only gasoline prices that have been affected 
by refinery closures. Prices for distillate fuel, primarily ULSD, are 
expected to rise as well. ``Looking ahead ULSD demand in the Northeast 
is expected to increase considerably.''\8\ Use of ULSD for 
transportation is increasing. And rising ULSD prices are particularly 
problematic in the northeastern United States, where State regulations 
in New York, soon to be followed by Massachusetts, New Jersey, Vermont 
and Maine, are beginning to require heating oil to meet the low sulfur 
levels found only in ULSD. As with gasoline, providing sufficient ULSD 
``volume to the Northeast will be hampered by logistical constraints. 
With the [Gulf Coast] pipeline running near capacity, moving the needed 
product to the Northeast with require Jones Act tankers, which may be 
in short supply.''\9\
---------------------------------------------------------------------------
    \8\ Id. at 9.
    \9\ Id. at 12.
---------------------------------------------------------------------------
    As noted above, the USVI supplied thirty percent of the East 
Coast's distillate imports in 2011. With the closure of HOVENSA the 
East Coast has lost an important source of ULSD at a time when industry 
analysts warn that demand is on the rise and there are limited 
possibilities for replacing the lost volume.
    All of this is to say nothing of the catastrophic impact of the 
HOVENSA closure on the USVI itself, which has lost not only its largest 
employer and taxpayer but also its sole existing source of gasoline and 
the fuel oil that powers its electricity and water supplies. The 
economic problems triggered by the loss of the Pennsylvania refineries 
are magnified many times over in the USVI, which now faces not only 
higher fuel prices but also substantial increases in utility prices and 
a dramatic loss of public revenue.
    I hope this brief letter helps the Committee to understand the 
important role the USVI has played in supplying the East Coast with 
gasoline and distillate imports and the significant impact the closure 
of HOVENSA has had on East Coast supplies.
    Please let me know if you have any questions or if my 
administration can provide any further information.
                               __________
 Prepared Statement of Denis Stephano, President, United Steelworkers 
  (USW) Local 10-234, Representing Oil Refinery Workers at the former 
                    ConocoPhillips Co., Trainer, PA
    My name is Denis Stephano and I am president of United Steelworkers 
(USW) Local 10-234 at the former ConocoPhillips refinery in Trainer, 
Pa. Before ConocoPhillips shut down the refinery at the end of January, 
my local represented 234 operations and maintenance workers. We worked 
alongside an average of 150 contractors and 200 salaried personnel.
    On May 1, Delta Air Lines' wholly-owned subsidiary, Monroe Energy 
LLC, reached agreement with Phillips 66 to purchase the Trainer, Pa., 
facility. The acquisition is supposed to close in the first half of 
2012. Re-opening this refinery will provide jobs for hundreds of former 
ConocoPhillips and Sunoco Marcus Hook workers.
    Even though the former ConocoPhillips refinery has been sold, its 
purpose mainly will be to produce jet fuel. Sunoco's Philadelphia 
refinery is still for sale and if it is not bought by the end of August 
it will shut down. This is the East Coast's largest refinery with 
335,000 barrels-per-day and analysts say that if this capacity is 
shuttered oil prices in the Northeast will soar.
    The Philadelphia refinery alone accounts for nearly a quarter of 
refinery capacity on the East Coast, and the U.S. Energy Information 
Administration (EIA) predicts that if it shuts down, ``petroleum 
product markets in the Northeast could be significantly impacted.''
    East Coast refineries mainly serve the Northeast, supplying about 
40 percent of Northeast gasoline sales and 60 percent of distillate 
(diesel fuel and heating oil) sales in 2010, according to the EIA. 
About half of the supply came from the three Philadelphia-area 
refineries. Another supply source for the Northeast was eliminated when 
HOVENSA (a joint venture between Hess Corp. and Petroleos de Venezuela) 
in February closed its St. Croix refinery (550,000 b/d) in the U.S. 
Virgin Islands. This refinery mainly supplied the Northeast with 
gasoline and Ultra-Low-Sulfur Diesel (ULSD).
    East Coast refining capacity has been steadily declining since 
2000. The attached Northeast refinery crude capacity chart shows 
regional capacity at 1,780,700 b/d in 2000 and it plunges to 773,200 b/
d in July 2012 if a buyer is not found for the Sunoco Philadelphia 
refinery. Western Refining has already shut down and sold the Yorktown, 
Va., refinery and it is being demolished and turned into a terminal. 
Sunoco's Eagle Point refinery in Westville, N.J., met the same fate.
    This situation will result in higher prices at the pump and for 
home heating oil and other petroleum products. With the three 
Philadelphia-area refineries operating the Northeast can be assured of 
a steady supply of gasoline, home heating oil and ultra-low-sulfur 
diesel. Take out the Marcus Hook and Philadelphia refineries and the 
Northeast becomes subject to fuel supply shortfalls and price spikes 
while new infrastructure is being put into place during the next 
several years. The EIA says that ``in the longer run, higher prices and 
possibly higher price volatility can result from longer supply 
chains.''
    The EIA says that adequate refining capacity is available outside 
of the East Coast to replace the lost capacity, but this makes the 
Northeast far more dependent on Gulf Coast refineries and fuel imports 
for its gasoline needs. This presents a major logistical problem. The 
Colonial Pipeline, which carries most Gulf Coast products to the 
Northeast, is running near capacity. It is being expanded but the EIA 
says it still will not be able to make up for the entire lost 
production from the shutdown of the Philadelphia-area refineries.
    The second major logistical problem in getting product from the 
Gulf is the small number of Jones Act tankers. The Jones Act requires 
that commercial shipments between two U.S. ports must be on U.S.-flag 
ships that are constructed in the U.S., wholly owned by U.S. citizens 
and staffed with U.S. citizens and U.S. permanent residents. Only 56 
such tankers exist and they are usually chartered months in advance, 
limiting their short-term availability.
    We view the Jones Act as a critical domestic jobs policy enabler 
that supports both economic and national security of our shoreline 
shipping. The USW is a strong advocate of the Jones Act and is a member 
of the AFL-CIO Maritime Trades.
    The third major logistical problem is receiving products at ports 
and connecting into the product pipelines that originate in the 
Philadelphia-area refining complex to serve inland Pennsylvania and 
western New York markets. The existing equipment at the ports is 
designed to unload crude oil and needs substantial modification to 
handle oil products. Plus, there are few pipelines at the ports that 
are connected to existing crude oil terminals.
    Shutting down the Philadelphia-area and HOVENSA refineries also 
makes it difficult for the Northeast to get ULSD fuel. Demand for this 
fuel is increasing as states mandate use of it in place of high sulfur 
heating oil. New York will be the first Northeast state to require ULSD 
in July 2012. By 2018 the states of Maine, Massachusetts, New Jersey 
and Vermont will have implemented the ULSD requirement. As the economy 
improves more ULSD will be needed because it is a required 
transportation fuel. Obtaining ULSD fuel will be a challenge because 
the Gulf Coast is the only place to obtain it and the logistical 
problems mentioned earlier are likely to cause supply shortfalls and 
price spikes. It is not unconceivable that some people in the Northeast 
may find themselves having to choose between heating their home and 
eating. Others literally could freeze to death in their homes.
    Being dependent on the Gulf Coast for petroleum product supplies 
also makes the Northeast vulnerable to supply problems arising out of 
hurricanes that hit the Gulf region. Refineries in the storm's path are 
shut down in anticipation of the hurricane and afterward it can take 
several weeks or months to restart the refineries, depending on whether 
or not the facilities sustained damage.
    For example, Hurricane Katrina made landfall on Aug. 29, 2005 and a 
month later 900,000 million b/d of refining capacity remained shut 
down. Hurricane Rita made landfall several weeks later in September and 
in early October 2.2 million b/d of refining capacity that had been 
shuttered by Hurricane Rita remained shut. This meant that, at one 
time, roughly one-third of U.S. refining capacity was shut down. The 
Colonial Pipeline was also shut down in anticipation of Hurricane Rita. 
Afterward, it did not operate at full capacity because of lack of 
product from the shutdown refineries and problems with electrical 
supply.
    Gasoline shortages arose and prices spiked because of these 
problems. The Philadelphia-area refineries were operating and could 
churn out gasoline, ULSD and jet fuel to make up for some of the loss 
from the Gulf Coast. These refineries helped spare the Northeast from 
some of the pain at the pump. With these refineries gone the Northeast 
is left vulnerable to the whims of Mother Nature--not exactly a 
situation that bolsters the region's energy security.
    Gas prices in the Northeast would have to be high enough to attract 
Gulf Coast oil products, and the Northeast would also be competing for 
these products with other countries. These two factors would cause the 
price of gasoline in the Northeast to remain high.
    Besides obtaining oil products from the Gulf Coast refineries, the 
Northeast would increasingly have to depend upon oil product imports 
from other countries if the Philadelphia-area refineries are shuttered. 
This also would cause gas prices to rise. This is a particular problem 
with global tensions running high. Iran has been threatening to shut 
the Strait of Hormuz and block oil shipments. One-fifth of the world's 
oil trade passes through there. Since a number of European refineries 
have been shut down, India and the Far East have been cited as likely 
sources of gasoline and other fuel imports. These areas are subject to 
terrorist attack and are in less stable parts of the world.
    My testimony and the accompanying chart show a disturbing trend by 
the oil industry to cease refining, while holding onto these viable 
assets as mere storage. While we understand the oil industry and price 
fluctuations are global, US energy security and regional economies 
should not be held hostage to shareholder profits. Our citizens deserve 
better and Congress should investigate these practices.
    Thank you for providing me this opportunity to present testimony.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                  <all>

</pre></body></html>
